<html>
<title> - ENGINES OF ECONOMIC MOBILITY: THE CRITICAL ROLE OF COMMUNITY COLLEGES, HISTORICALLY BLACK COLLEGES AND UNIVERSITIES, AND MINORITY-SERVING INSTITUTIONS IN PREPARING STUDENTS FOR SUCCESS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                     ENGINES OF ECONOMIC MOBILITY:
                     THE CRITICAL ROLE OF COMMUNITY
                      COLLEGES, HISTORICALLY BLACK
                     COLLEGES AND UNIVERSITIES, AND
                    MINORITY-SERVING INSTITUTIONS IN
                     PREPARING STUDENTS FOR SUCCESS

=======================================================================

                                HEARING

                               BEFORE THE

       SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE INVESTMENT


                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 22, 2019

                               __________

                           Serial No. 116-25

                               __________

      Printed for the use of the Committee on Education and Labor

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

           Available via the World Wide Web: www.govinfo.gov
                                   or
              Committee address: https://edlabor.house.gov
              
              
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-600 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
         
              
              
              
                    COMMITTEE ON EDUCATION AND LABOR

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

Susan A. Davis, California           Virginia Foxx, North Carolina,
Raul M. Grijalva, Arizona            Ranking Member
Joe Courtney, Connecticut            David P. Roe, Tennessee
Marcia L. Fudge, Ohio                Glenn Thompson, Pennsylvania
Gregorio Kilili Camacho Sablan,      Tim Walberg, Michigan
  Northern Mariana Islands           Brett Guthrie, Kentucky
Frederica S. Wilson, Florida         Bradley Byrne, Alabama
Suzanne Bonamici, Oregon             Glenn Grothman, Wisconsin
Mark Takano, California              Elise M. Stefanik, New York
Alma S. Adams, North Carolina        Rick W. Allen, Georgia
Mark DeSaulnier, California          Francis Rooney, Florida
Donald Norcross, New Jersey          Lloyd Smucker, Pennsylvania
Pramila Jayapal, Washington          Jim Banks, Indiana
Joseph D. Morelle, New York          Mark Walker, North Carolina
Susan Wild, Pennsylvania             James Comer, Kentucky
Josh Harder, California              Ben Cline, Virginia
Lucy McBath, Georgia                 Russ Fulcher, Idaho
Kim Schrier, Washington              Van Taylor, Texas
Lauren Underwood, Illinois           Steve Watkins, Kansas
Jahana Hayes, Connecticut            Ron Wright, Texas
Donna E. Shalala, Florida            Daniel Meuser, Pennsylvania
Andy Levin, Michigan*                William R. Timmons, IV, South 
Ilhan Omar, Minnesota                    Carolina
David J. Trone, Maryland             Dusty Johnson, South Dakota
Haley M. Stevens, Michigan
Susie Lee, Nevada
Lori Trahan, Massachusetts
Joaquin Castro, Texas
* Vice-Chair

                   Veronique Pluviose, Staff Director
                 Brandon Renz, Minority Staff Director
                 
                                 ------                                

       SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE INVESTMENT

                 SUSAN A. DAVIS, California, Chairwoman


Joe Courtney, Connecticut            Lloyd Smucker, Pennsylvania,
Mark Takano, California                Ranking Member
Pramila Jayapal, Washington          Brett Guthrie, Kentucky
Josh Harder, California              Glenn Grothman, Wisconsin
Andy Levin, Michigan                 Elise Stefanik, New York
Ilhan Omar, Minnesota                Jim Banks, Indiana
David Trone, Maryland                Mark Walker, North Carolina
Susie Lee, Nevada                    James Comer, Kentucky
Lori Trahan, Massachusetts           Ben Cline, Virginia
Joaquin Castro, Texas                Russ Fulcher, Idaho
Raul M. Grijalva, Arizona            Steve C. Watkins, Jr., Kansas
Gregorio Kilili Camacho Sablan,      Dan Meuser, Pennsylvania
  Northern Mariana Islands           William R. Timmons, IV, South 
Suzanne Bonamici, Oregon                 Carolina
Alma S. Adams, North Carolina
Donald Norcross, New Jersey
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 22, 2019.....................................     1

Statement of Members:
    Davis, Hon. Susan A., Chairwoman, Subcommittee on Higher 
      Education and Workforce Investment.........................     1
        Prepared statement of....................................     4
    Smucker, Hon. Lloyd, Ranking Member, Subcommittee on Higher 
      Education and Workforce Investment.........................     5
        Prepared statement of....................................     6

Statement of Witnesses:
    Boham, Dr. Sandra L., ED.D., President, Salish Kootenai 
      CollegeS...................................................    46
        Prepared statement of....................................    48
    Dubois, Dr. Glenn, Ph.D., Chancellor, Virginia Community 
      College System.............................................    35
        Prepared statement of....................................    37
    McHatton, Dr. Patricia, Ph.D., Executive Vice President of 
      Academic Affairs, Student Success and P-16 Integration, 
      University of Texas Rio Grande Valley......................    26
        Prepared statement of....................................    28
    Verret, Dr. Reynold, Ph.D., President, Xavier University of 
      Louisiana..................................................     8
        Prepared statement of....................................    11

Additional Submissions:
    Chairwoman Davis:
        Graduation Rate Initiative...............................    91
    Takano, Hon. Mark, a Representative in Congress from the 
      State of California:
        Letter dated May 20, 2019, from SEARAC...................    93
        Prepared statement from OCA - Asian Pacific American 
          Advocates..............................................    95
    Trone, Hon. David J., a Representative in Congress from the 
      State of Maryland:
        HBCU's Make America Strong: The Positive Economic Impact 
          of Historically Black Colleges and Universities........    99
    Questions submitted for the record by:
        Grijalva, Hon. Raul M., a Representative in Congress from 
          the State of Arizona 



        Levin, Hon. Andy, a Representative in Congress from the 
          State of Michigan 



        Norcross, Hon. Donald, a Representative in Congress from 
          the State of New Jersey................................   110
        Sablan, Hon. Gregorio Kilili Camacho, a Representative in 
          Congress from the Northern Mariana Islands 



        Scott, Hon. Robert C. ``Bobby'', a Representative in 
          Congress from the State of Virginia 



        Trahan, Hon. Lori, a Representative in Congress from the 
          State of Massachusetts 





    Responses to questions submitted for the record by:
        Dr. Boham................................................   116
        Dr. Dubois...............................................   119
        Dr. McHatton.............................................   126
        Dr. Verret...............................................   137

 
                     ENGINES OF ECONOMIC MOBILITY:
                     THE CRITICAL ROLE OF COMMUNITY
                      COLLEGES, HISTORICALLY BLACK
                     COLLEGES AND UNIVERSITIES, AND
                    MINORITY-SERVING INSTITUTIONS IN
                     PREPARING STUDENTS FOR SUCCESS

                              ----------                              


                        Wednesday, May 22, 2019

                       House of Representatives,

                   Committee on Education and Labor,

       Subcommittee on Higher Education and Workforce Investment

                            Washington, DC.

                              ----------                              

    The subcommittee met, pursuant to notice, at 10:17 a.m., in 
room 2175, Rayburn House Office Building. Hon. Susan A. Davis 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Davis, Courtney, Takano, Harder, 
Levin, Omar, Trone, Trahan, Castro, Sablan, Bonamici, Adams, 
Norcross, Smucker, Guthrie, Grothman, Stefanik, Cline, Watkins, 
and Timmons.
    Also present: Representatives Scott, Foxx, Wild, and Hayes.
    Staff present: Tylease Alli, Chief Clerk; Katie Berger, 
Professional Staff; Nekea Brown, Deputy Clerk; Emma Eatman, 
Press Assistant; Christian Haines, General Counsel Education; 
Ariel Jona, Staff Assistant; Stephanie Lalle, Deputy 
Communications Director; Richard Miller, Director of Labor 
Policy; Max Moore, Office Aid; Veronique Pluviose, Staff 
Director; Katherine Valle, Senior Education Policy Advisor; 
Banyon Vassar, Deputy Director of Information Technology; 
Courtney Butcher, Minority Director of Member Services and 
Coalitions; Bridget Handy, Minority Communications Assistant; 
Amy Raaf Jones, Minority Director of Education and Human 
Resources Policy; Hannah Matesic, Minority Director of 
Operations; Kelley McNabb, Minority Communications Director; 
Casey Nelson, Minority Staff Assistant; Brandon Renz, Minority 
Staff Director; Alex Ricci, Minority Professional Staff; Mandy 
Schaumburg, Minority Chief Counsel and Deputy Director of 
Education Policy; and Meredith Schellin, Minority Deputy Press 
Secretary and Digital Advisor.
    Chairwoman DAVIS. Good morning and welcome everyone. The 
Subcommittee on Higher Education and Workforce Investment will 
come to order. We are happy that you're here. I note that a 
quorum is present.
    I also want to ask unanimous consent that Ms. Wild of 
Pennsylvania and Ms. Hayes of Connecticut be permitted to 
participate in today's hearing with the understanding that 
their questions will come after all members have completed 
their questions.
    The committee is meeting today in a legislative hearing to 
hear testimony on engines of Economic Mobility, the Critical 
Role of Community Colleges, Historically Black Colleges and 
Universities and Minority Serving Institutions in Preparing 
Students for Success.
    Pursuant to committee rule 7c, opening statements are 
limited to the chair and the ranking member and this allows us 
to hear from our witnesses sooner and provides all members with 
adequate time to ask questions. I recognize myself now for the 
purpose of making an opening statement.
    Today we will examine the critical role of historically 
black colleges and universities, HBCU's, tribal colleges and 
universities, Hispanic serving institutions and community 
colleges in providing low income students and students of color 
with a quality higher education.
    Our first three bipartisan hearings have so clearly 
demonstrated that a college degree remains the surest path to 
financial stability for Americans across the country. This is 
particularly true for low income students and students of color 
who's educational and work force opportunities have 
historically been limited by intergenerational poverty and 
systemic racism.
    In fact, studies show that students with parents in the 
bottom quintile of the income distribution can double their 
chances of moving up the income ladder if they obtain a degree. 
However, Federal data released this morning on college 
enrollment reveals a 50 percentage point gap between low income 
students and their wealthy peers. We have much work to do.
    HBCU's, tribal colleges and universities, Hispanic serving 
institutions, and community colleges continue to do this work 
and demonstrate their commitment and ability to provide these 
students with the benefits that come with a quality education. 
Founded for the specific purpose of educating black students 
because other institutions would not, HBCU's continue to live 
up to their mission of providing a community where black 
students can thrive.
    HBCU's make up less than 3 percent of colleges and 
universities yet they produce almost 20 percent of all black 
graduates.
    Tribal colleges and universities, TCU's were developed as 
part of a political and social movement to regain tribal 
autonomy and to combat centuries of forced assimilation and 
destruction of native communities. Today there are 35 
accredited TCU's serving students from more than 230 federally 
registered tribes.
    Hispanic serving institutions educate more than 3 out of 5 
undergraduate Latino students and one quarter of all 
undergraduate students. Among 4-year institutions, Hispanic 
serving instructions propel low income students to top income 
brackets at a rate three times, three times that of 
predominantly white institutions.
    Hispanic serving institutions can also act as cultural hubs 
for Latino students, many of whom earn their degree and return 
to work in their own communities. These institutions are 
effective engines of economic mobility because they meet 
students where they are and are dedicated to educating the 
whole person.
    HBCU's and TCU's in particular embed appreciation for the 
identity and culture of the students they serve in their 
foundational missions. Honoring ancestors, sustaining 
traditions and engaging honestly with American history all 
serve to signal to students that they belong in college.
    Many other institutions such as Asian American and Native 
American Pacific Islander serving institutions and 
predominantly black institutions also serve low income students 
and students of color. These institutions are forced to do more 
with less.
    To be designated as a minority serving institution, 
colleges must not only enroll a substantial number of students 
of color but it must also enroll a substantial number of Pell 
students and have fewer resources than peer institutions.
    In my own State, the California State University system is 
a model for how minority serving institutions can help students 
overcome barriers to higher education. Reflecting the 
population of the State, more than half of CSU students are 
people of color. One in 3 students are the first in their 
family to attend college and more than half of all students 
receive Pell grants.
    Community college also play a crucial role in providing 
higher education to low income students and students of color. 
These 2-year colleges often provide a local and affordable 
option for students who are priced out of 4-year institutions.
    In fact, community colleges enrolled 1 in 3 black students 
and nearly half of Latino, Asian American and Pacific Islander 
and first generation students. More than a third of low income 
students attend community colleges.
    The great work being done cross the country by HBCU's, 
TCU's, minority serving institutions and community colleges is 
unfortunately hampered by deeply inadequate funding. Persistent 
and systemic underfunding of HBCU's has been extensively 
documented.
    The Federal Government has never fully fulfilled its 
obligation to support native students at TCU's and less than 
half of designated HSI' have received a grant through HSI 
specific programs. And the average community college receives 
about half the amount of per student funding received by public 
4 year colleges.
    With this funding inequity, we must ask ourselves how are 
these institutions still producing such strong results? How is 
that? As our witnesses will highlight, when we invest in HBCU's 
and tribal colleges and universities, Hispanic serving 
institutions, and community colleges, we empower hundreds of 
thousands of students each year with the most powerful tool 
available to achieve success, a college degree.
    And lastly, as we honor the 65th anniversary of Brown v. 
Board, and wrestle with the promise unfulfilled, it becomes 
evident that just like our K12 system we spend more money to 
educate wealthy college students and students who are 
underserved by our education system.
    Depriving the institutions that serve our most vulnerable 
college students of the resources made available to 
predominantly white 4 year universities is contrary to our 
values and the best interest as a Nation.
    Congress has a responsibility to strengthen and invest in 
institutions that are promoting economic mobility as we 
continue to work toward a reauthorization of key Federal higher 
education policy. We must understand the critical work these 
institutions are doing to address the specific needs of today's 
students and invest, invest in these initiatives. Thank you 
President Verret to Dr. McHatton, Chancellor DuBois, and 
President Boham for being with us today.
    I now yield to the ranking member, Mr. Smucker, for his 
opening statement.

Prepared Statement of Hon. Susan A. Davis, Chairwoman, Subcommittee on 
               Higher Education and Workforce Investment

    Today, we will examine the critical role of Historically Black 
Colleges and Universities, Tribal Colleges and Universities, Hispanic-
serving institutions, and community colleges in providing low-income 
students and students of color with a quality higher education.
    Our first three bipartisan hearings have so clearly demonstrated 
that a college degree remains the surest path to financial stability 
for Americans across the country. This is particularly true for low-
income students and students of color whose educational and work force 
opportunities have historically been limited by intergenerational 
poverty and systemic racism. In fact, studies show that students with 
parents in the bottom quintile of the income distribution can double 
their chances of moving up the income ladder if they obtain a degree. 
However, Federal data released this morning on college enrollment 
reveals a 50-percentage point gap between low-income students and their 
wealthy peers. We have much more work to do.
    HBCUs, Tribal Colleges and Universities, Hispanic-serving 
institutions, and community colleges continue to do this work and 
demonstrate their commitment and ability to provide these students with 
the benefits that come with a quality education.
    Founded for the specific purpose of educating Black students 
because other institutions would not, HBCUs continue to live up to 
their mission of providing a community where Black students can thrive. 
HBCUs make up less than 3 percent of colleges and universities yet 
produce almost 20 percent of all Black graduates.
    Tribal Colleges and Universities (TCUs) were developed as part of a 
political and social movement to regain Tribal autonomy and to combat 
centuries of forced assimilation and destruction of Native communities. 
Today, there are 35 accredited TCUs serving students from more than 230 
federally registered tribes.
    Hispanic-serving institutions educate more than three out of five 
undergraduate Latino students and one quarter of all undergraduate 
students. Among 4-year institutions, Hispanic-serving institutions 
propel low-income students to top income brackets at a rate three times 
that of predominantly white institutions. Hispanic-serving institutions 
can also act as cultural hubs for Latino students, many of whom earn 
their degree and return to work in their communities.
    These institutions are effective engines of economic mobility 
because they meet students where they are and are dedicated to 
educating the whole person. HBCUs and TCUs, in particular, embed 
appreciation for the identity and culture of the students they serve in 
their foundational missions. Honoring ancestors, sustaining traditions, 
and engaging honestly with American history all serve to signal to 
students that they belong in college.
    Many other institutions, such as Asian American and Native American 
Pacific Islander Serving Institutions and Predominantly Black 
Institutions, also serve low-income students and students of color. 
These institutions are forced to do more with less. To be designated as 
a minority-serving institution, colleges must not only enroll a 
substantial number of students of color, but it must also enroll a 
substantial number of Pell students and have fewer resources than peer 
institutions.
    In my own State, the California State University system is a model 
for how minority-serving institutions can help students overcome 
barriers to higher education. Reflecting the population of the State, 
more than half of CSU students are people of color, one in three 
students are the first in their family to attend college, and more than 
half of all students receive Pell Grants.
    Community college also play a crucial role in providing higher 
education to low-income students and students of color. These 2-year 
colleges often provide a local and affordable option for students who 
are priced out of 4-year institutions. In fact, community colleges 
enroll one in three Black students and nearly half of Latino, Asian 
American and Pacific Islander, and first-generation students. More than 
a third of low-income students attend community colleges.
    The great work being done across the country by HBCUs, TCUs, 
minority-serving institutions, and community colleges is unfortunately 
hampered by deeply inadequate funding:
    * The persistent and systemic underfunding of HBCUs has been 
extensively documented.
    * The Federal Government has never fully fulfilled its obligation 
to support Native students at TCUs.
    * Less than half of designed HSIs have received a grant through 
HSI-specific programs.
    * And the average community college receives about half the amount 
of per-student funding received by public 4-year colleges.
    With this funding inequity, we must ask ourselves how are these 
institutions still producing such strong results? As our witnesses will 
highlight, when we invest in HBCUs, Tribal Colleges and Universities, 
Hispanic-serving institutions, and community colleges, we empower 
hundreds of thousands of students each year with the most powerful tool 
available to achieve success: a college degree.
    Last, as we honor the 65th Anniversary of Brown v. Board and 
wrestle with a promise unfulfilled, it becomes evident that just like 
our K-12 system, we spend more money to educate wealthy college 
students than students who are underserved by our education system. 
Depriving the institutions that serve our most vulnerable college 
students of the resources made available to predominantly white 4-year 
universities is contrary to our values and our best interest as a 
Nation.
    Congress has a responsibility to strengthen and invest in 
institutions that are promoting economic mobility. As we continue to 
work toward a reauthorization of key Federal higher education policy, 
we must understand the critical work these institutions are doing to 
address the specific needs of today's students and invest in these 
initiatives.
    Thank you--President Verret, Dr. McHatton, Chancellor DuBois, and 
President Boham--for being with us today.
    I now yield to the Ranking Member, Mr. Smucker, for his opening 
statement.
                                 ______
                                 
    Mr. SMUCKER. Thank you, Madame Chair, for yielding. We are 
all here today because we believe that every American should 
have the opportunity to pursue post-secondary education and we 
know doors are opened by college degree and we understand the 
importance of making this kind of opportunity achievable for 
everyone in our country.
    Higher education can help set individuals on the right path 
to achieve the American dream. And while it's not the only 
pathway to a high quality, family sustaining job, it provides 
many with the opportunity to get their foot in the door to a 
lifelong career.
    As a result of the economic policies that we put in place, 
the good news is today's graduates are entering a booming job 
market. We have over 7 million job openings and at least 6.7 
million unemployed. So I'm very proud of the opportunities our 
economic growth will create for the next generation and believe 
that if we give students access, those who are willing to work 
hard, make good decisions have an excellent opportunity to 
succeed. That access is a critical piece of the pie.
    Higher education should be accessible and attainable 
regardless of circumstance which is why the Federal Government 
has made it a clear priority to ensure that low income and 
first generation students have the tools that they need to 
prepare for post-secondary education commitments and manage the 
costs associated with earning a degree.
    As we continue to consider what must be done in any 
reauthorization of the Higher Education Act, we have the 
opportunity to ensure that restructuring and innovation of our 
higher education system provides all students that access to 
opportunities that offer those pathways to success, both inside 
and outside of the conventional classroom.
    That could mean alternative pathways to a 4 year degree 
such as offering programs to teach in demand skills so that 
students can take only the courses they need to do their jobs, 
dual enrollment pathways and opportunities later in life to 
rescale.
    For any of these changes to take place, we must recognize 
that the dollar, the money is an important part of the 
conversation and institutions need to be willing to take 
responsibility for the outcomes of their students.
    Stories like one from this weekend where a billionaire 
gifted an entire graduating class with paying off their student 
debt are great examples of one person's capacity for excellence 
and generosity. But they also illustrate something that's too 
easily forgotten, that nothing is free and someone always pays 
the price.
    This means that Congress and other institutions need to 
step up to the plate, do all that we can respectively to make 
higher education an investment that doesn't cost more than it 
reaps. And that is true for students and for taxpayers who are 
investing.
    In the Promoting Real Opportunity Success and Prosperity 
through Education Reform, the PROSPER Act, that was a 
comprehensive proposal to reauthorize the HEA in the last 
Congress, Republicans included reforms that allowed students 
greater access to Federal student aid, promoted earn and learn 
programs, increased flexibility in spending institutional aid 
and reform the Federal work study program to better prepare 
students for future employment in their chosen fields.
    These bold ideas for affordable and accessible post-
secondary education recognize that for too long, the Federal 
Government has complied with a myopic view of what post-
secondary education is and why people pursue any kind of higher 
education. We must recognize that postsecondary education needs 
to work for students and not the other way around.
    This committee should continue to consider these reforms 
top priorities as it discusses policy changes that could be 
included in the reauthorization of the HEA. We need to be 
striving on both sides of the aisle for new ideas that will 
increase opportunities for all American students regardless of 
circumstance and support their efforts to succeed and prosper. 
With that I yield back.

Prepared Statement of Hon. Lloyd Smucker, Ranking Member, Subcommittee 
              on Higher Education and Workforce Investment

    Thank you for yielding.
    We're all here today because we believe that every American should 
have the opportunity to pursue postsecondary education. We've seen the 
doors opened by a college degree, and we understand the importance of 
making this kind of opportunity achievable for everyone in our country. 
Higher education should be accessible and attainable, regardless of 
circumstance, which is why the Federal Government has made it a clear 
priority to ensure low-income and first-generation students have the 
tools they need to prepare for postsecondary education commitments and 
manage the costs associated with earning a degree.
    As we continue to consider what must be done in any reauthorization 
of the Higher Education Act, we have the opportunity to ensure that 
restructuring and innovation in our higher education system provides 
all students equal access to opportunities that offer pathways to 
success--both inside and outside of the conventional classroom. This 
could mean alternative pathways to a 4-year degree, such as offering 
programs to teach in-demand skills so that students can take only the 
courses they need to do their jobs, dual enrollment pathways, and 
opportunities later in life to re-skill.
    For any of these changes to take place, we must recognize that 
money is an important part of the conversation, and institutions need 
to be willing to take more responsibility for the outcomes of their 
students. Stories like one from this weekend, where a billionaire 
gilted an entire graduating class with paying off their student debt, 
are great examples of one person's capacity for excellence and 
generosity. They also illustrate something too easily forgotten: that 
nothing is free, and someone always pays the price. This means Congress 
and institutions need to step up to the plate, and do all they can 
respectively, to make higher education an investment that doesn't cost 
more than it reaps-for students and taxpayers.
    In the Promoting Real Opportunity Success and Prosperity through 
Education Reform (PROSPER) Act, which was a comprehensive proposal to 
reauthorize the HEA in the 115th Congress, Republicans included reforms 
that allowed students greater access to Federal student aid, promoted 
earn and learn programs, increased flexibility in spending 
institutional aid, and reformed the Federal work study program to 
better prepare students for future employment in their chosen fields. 
These bold ideas for affordable and accessible postsecondary education 
recognized that for too long, the Federal Government has complied with 
a myopic view of what postsecondary education is and why people pursue 
any kind of higher education. We must recognize that postsecondary 
education needs to work for students-not the other way around.
    The committee should continue to consider these reforms top 
priorities as it discusses policy changes that could be included in the 
reauthorization of the HEA. We need to be striving, on both sides of 
the aisle, for new ideas that will increase opportunities for all 
American students, regardless of circumstance, and support their 
efforts to succeed and prosper.
                                 ______
                                 
    Chairwoman DAVIS. Thank you. Without objection, all other 
members who wish to insert written statements into the record 
may do so by submitting them to the committee clerk 
electronically in Microsoft Word by 5 p.m. on June 4. And I 
will now introduce our witnesses. Again, thank you all very 
much for being here.
    Dr. Reynold Verret is the 6th president and second leg 
leader of Xavier University of Louisiana, a private Catholic 
liberal arts historically black college and university. Before 
his presidency in 2015, Dr. Verret served as provost as 
Savannah State University and Wilkes University. Dr. Verret 
received his undergraduate degree cum laude in biochemistry 
from Columbia University and a PhD in biochemistry from the 
Massachusetts Institute of Technology.
    Dr. Patricia McHatton is the Executive Vice President for 
Academic Affairs, Student Success and P-16 Integration at the 
University of Texas Rio Grande Valley, a Hispanic serving 
institution. Dr. McHatton has served in a variety of leadership 
positions including Dean at the College of Education, 
Department Chair, and Associate Dean for Teacher Preparation. 
She earned a PhD from the University of South Florida in 
curriculum and instruction with an emphasis in special 
education and urban education.
    Dr. Glen DuBois is now the longest serving chancellor in 
the history of Virginia's community colleges, hired in 2001. 
Since then, he has led the system of 23 colleges and 40 
campuses through two successful strategic plans and a third 
called Complete 2021 which aspires to triple the number of 
credentials that colleges put into Virginia's economy.
    Dubois earned his PhD in higher education administration, 
research and policy from the University of Massachusetts. He 
holds a master's degree from Eastern Kentucky University, a 
bachelor's degree from Florida Atlantic University and an 
associate of science degree from the State University of New 
York and Farmingdale.
    Dr. Sandra Boham is the President of Salish Kootenai 
College, a tribal college and university, a TCU, located in 
Montana after serving as Vice President of Academic Affairs. 
She has more than two decades of experience working in higher 
education both in Montana and California.
    Dr. Boham is an enrolled member of the Confederated Salish 
in Kootenai Tribes of the Flathead Indian Reservation. She 
earned her doctorate of education in educational leadership 
from the University of Montana, holds a masters of education 
from Montana State University and a bachelor of arts in 
sociology from the University of Montana.
    Again, welcome to you all. We appreciate all the witnesses 
for being here and for you all being here and certainly look 
forward to your testimony. I just wanted to remind you that we 
have read your written statements and they will appear in full 
in the hearing record.
    Pursuant to committee rule 7d and committee practice, each 
of you is asked to limit your oral presentation to a 5 minute 
summary of your written statement. I also wanted to remind you 
that pursuant to Title 18 of the U.S. Code, section 1001 it is 
illegal to knowingly and willfully falsify any statement, 
representation, writing, document, or material fact presented 
to Congress or otherwise conceal or cover up a material fact.
    Before you begin your testimony, please remember to press 
the button on the microphone in front of you so that it will 
turn on and we all can hear you. As you begin to speak, the 
light in front of you will turn green and after 4 minutes, the 
light will turn yellow to signal you have one remaining minute. 
And when the light turns red your 5 minutes have expired and we 
will ask you to please wrap up.
    We will let the entire panel make their presentations 
before we move to member questions and when answering a 
question, please remember to once again turn your microphone 
on. First to recognize is Dr. Verret. Thank you.

     STATEMENT OF REYNOLD VERRET, PH.D., PRESIDENT, XAVIER 
                    UNIVERSITY OF LOUISIANA


    Mr. VERRET. Thank you. Subcommittee Chairwoman Susan Davis, 
Ranking Member Lloyd Smucker, and members of the subcommittee, 
thank you for this opportunity to address you. My name is 
Reynold Verret. I serve as the 6th president of Xavier 
University of Louisiana. It was founded by Saint Katherine 
Drexel and the Sisters of the Blessed Sacrament. My institution 
is Catholic and also an HBCU, historically black college.
    The ultimate purpose of Xavier is to contribute to the 
promotion of the just and humane society. This preparation 
takes place in diverse learning environments that incorporate 
all relevant learning means including research experiences and 
community service.
    I was asked to testify before the subcommittee today on the 
institution as an engine of economic mobility, and the programs 
that demonstrate this at the institution. How these programs 
prepare students for careers and a brief history of HBCU's why 
they were created, why they are important.
    HBCU's were created as early as 1837 to provide African 
Americans access to higher education. Noted for their 
contributions to educating black low income and educationally 
disadvantaged Americans, the 101 HBCU's today constitute the 
class of institutions that satisfies the statutory requirements 
and definition of HBCU's as defined by the Higher Education Act 
of 1965.
    In my home State of Louisiana, according to and economic 
impact study, by the UNCF, the United Negro College Fund, the 
impact of the 6 HBCU's in the State on our regional economy and 
employment impact of 8,454 jobs. The total economic impact of 
$924--$923 million and a lifetime earnings of $94--$9.4 
billion.
    For Xavier specifically, the regional impact of our 
institution is an output impact of $200 million in our 
regional, a value added impact of $135 million, a labor income 
impact of $95 million and an employment impact of 1,715 jobs. 
Xavier is considered to be one of the best value schools in the 
Nation for quality education according to the U.S. News and 
World Report.
    However, as our students come close to realizing their 
dreams of higher education, the more expensive these goals 
become. Tuition at Xavier is $22,503 per year. This is 
considerably lower than its peer institutions.
    More than 93 percent of Xavier undergraduates qualify for 
need based or other forms of financial aid and more than 65 
percent receive Federal Pell grants. We are grateful for your 
bipartisan support and forgiveness of the HBCU Hurricane 
Katrina supplemental loan that helped us recover from the 
disaster.
    Xavier leads in preparing African American physicians in 
the Nation and also sending African American PhD's in the 
sciences. At Xavier, we are innovating our programs and 
preparing our students for the work force and a changing work 
force. We are launching 14 new high quality programs including 
the BS in neuroscience and the only physician's assistance 
program, master's program in the State of Louisiana and a PhD 
in education.
    We believe that all children deserve great teachers and 
thus we are also engaged in preparing highly qualified teachers 
for our primary and secondary schools. The expansion of our 
program offerings over the past 3 years allowed Xavier to meet 
the evolving needs of students to be globally competitive and 
to meet the talent needs of our regional and National work 
force.
    Xavier's Student Academic Success Office provides the 
resources and support systems to assist all students in being 
successful. A UNCF Lilly Foundation grant has allowed us to 
focus on creating career pathways and our faculty embrace a 
culture of successful students that is a tradition at Xavier.
    I am happy that the Fiscal Year 2020 Labor HHS 
Appropriation bill includes much needed increases in funding 
for HBCU's and hopes its passage through the House and Senate 
will ultimately follow. Title III parts B through F remain 
important programs for HBCU's for the HBCU community and should 
be fully funded. Senators Doug Jones and Tim Scott and 
Representatives Alma Adams and Mark Walker recently introduced 
the FUTURE Act, a bipartisan, bicameral piece of legalization. 
This bill extends the mandatory funding of Title III, Part F 
for HBCU's of $85 million for STEM initiatives until 2021. It 
is my hope that Congress passes this bill before this stream of 
funding expires on September 30, 2019.
    I must say to you the Nation has need of the ability, 
creativity, and ingenuity of the students we educate. In order 
to prosper and compete globally we will continue investment in 
them secures all of our futures.
    I want to thank you and if you want more my written 
testimony has been submitted. Please review it. Thank you very 
much.
    [The statement of Mr. Verret follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman DAVIS. Thank you. Dr. McHatton.

 STATEMENT OF PATRICIA ALVAREZ MCHATTON, PH.D., EXECUTIVE VICE 
   PRESIDENT FOR ACADEMIC AFFAIRS, STUDENT SUCCESS, AND P-16 
     INTEGRATION, THE UNIVERSITY OF TEXAS RIO GRANDE VALLEY


    Ms. MCHATTON. Good morning, Chairwoman Davis, Ranking 
Member Smucker, and honorable committee members. I am Patricia 
Alvarez McHatton, Executive Vice President of Academic Affairs, 
Student Success and P-16 Integration at the University of Texas 
Rio Grande Valley.
    I'm grateful for the opportunity to address you today and 
want to especially thank you for giving me an ability to share 
some of the wonderful work that's happening at the University 
of Texas Rio Grande Valley. We are a distributed campus 
spanning approximately 120 miles along the U.S. Mexico border 
all the way from Brownsville to Rio Grande City.
    Our fall 2018 enrollment was over 28,000 students. We 
graduate over 5,000 students each year. 87 percent of our 
students are Hispanic, 59 percent are first generation, 76 
percent of all undergraduate students receive some form of 
financial aid and 81 percent of undergraduate students 
receiving financial aid are Pell grant eligible.
    Most importantly, our students are committed to their 
education and to giving back to their community. The work we do 
is guided by five priorities with students' success at its 
core. We ensure students success by providing educational 
opportunities, engaging in research that impacts the Rio Grande 
Valley and beyond, expanding healthcare and medical education 
which is essential given that we are a medically underserved 
community with some of the highest rates of diabetes in the 
Nation, and collaborating with our community as true partners 
in our work.
    Our tuition is capped at 12 credit hours which means 
students do not pay for any courses above the 12 credit hours. 
Not only are they graduating in a timely manner but they are 
doing so with less debt. Our promise program exemplifies our 
commitment to ensuring our students graduate in 4 years. As 
part of the program, students take part in targeted career 
development opportunities, high impact practices, meet with 
mentors on a regular basis, and complete 15 hours a semester or 
30 hours in a calendar year.
    But getting them graduated is insufficient. We need to make 
sure that once they graduate they enter viable careers that 
address community needs. To do so we work in tandem with 
employers, educators, work force systems, and communities to 
ensure our current and future work force needs are met.
    First, we believe that teaching is the foundation of all 
professions. Therefore we have a responsibility to prepare 
teachers who understand not just content and pedagogue but also 
the applicability of what is learned to real world 
environments.
    We strive to ensure that our faculty are representative of 
our student population because it is important for our students 
to see individuals who look like them and sound like them in a 
variety of positions. And we have benefited from Federal 
funding to support initiatives that attract underrepresented 
faculty in our institution and help build capacity within our 
faculty.
    So how do we work with our stakeholders to ensure we have 
the right programs and opportunities for our students? We have 
representatives on economic development center and chamber 
boards throughout the valley. Recently at the request of Star 
County's EDC, we conducted an analysis to determine which 
industries are growing and expected to grow in the county and 
we are aligning educational programs to meet that work force 
need.
    We systematically bring stakeholders together to share 
cultural perspectives, talents, challenges, and opportunities 
and through this process, communities are empowered to provide 
input into university policies, curriculum, research, and 
initiatives.
    We offer opportunity for K12 learners to take part in 
summer camp that inspires them to enter STEM fields and high 
tech jobs and provide high school students opportunities to 
partner with faculty in research endeavors. We offer research 
and development support to local industries.
    The Center for Advanced Radio Astronomy and Stargate both 
support the development of future leaders in space exploration, 
commercial space industry, and related technology developments 
which is especially important now that Space X has moved into 
the RGV.
    And it isn't just the STEM fields that we focus on. The 
College of Fine Arts has a relationship with the Rio Grande 
State Center in Harlingen whereby art student's work directly 
with patients as part of the rehabilitation.
    We are in the process of launching our PhD program in 
clinical psychology which has a focus on Hispanic mental health 
and this is but one of many other programs that we are 
launching. In collaboration with nonprofits, governmental 
support organizations, and the business community we support 
entrepreneurial activity innovations through our Weslaco 
Regional Commercialization and Innovation Center and NSFI core 
teams program.
    The School of Medicine continues its mission to close gaps 
in healthcare and expand educational opportunities for its 
students. The South Texas Diabetes and Obesity Institute, the 
Institution of Neuro Science and the RGV Alzheimer's Center are 
engaged in research to address health disparities and the 
region.
    In closing, I want to point out that HSI's provide 
Hispanics the greatest access to college education. They 
represent over 15 percent of all higher ed institutions yet 
serve 66 percent of Hispanic undergraduates.
    In 2016, HSI's awarded 56 percent of all degrees to 
Hispanic students and are at the forefront to increase 
educational access and success for the Nation's Hispanic.
    I thank you for this opportunity to share the work being 
undertaken at UTRGV and stand ready to work with you in 
ensuring all students are ready for success.
    [The statement of Ms. McHatton follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman DAVIS. Thank you. Dr. DuBois.

    STATEMENT OF GLENN DUBOIS, PH.D., CHANCELLOR, VIRGINIA 
                    COMMUNITY COLLEGE SYSTEM


    Mr. DUBOIS. Chairwoman Davis, Ranking Member Smucker, 
members of the committee, good morning. The fact that I'm 
sitting here before you today is proof positive that community 
colleges are indeed engines of economic opportunity.
    I am a community college graduate. I was the first in my 
family to attend college. Truth said I was disinterested in 
high school and if it were not for my mother's persistence, I 
would have never even considered going to a community college. 
Today I'm chancellor of the Virginia Community College System. 
We operate 23 colleges across 40 campuses. I'm also a founding 
board member of a group called Rebuilding America's Middle 
Class, RAMC. It's a coalition of more than 100 community 
colleges focused on advancing post-secondary access and 
affordability.
    Our colleges were created to do what no one else really 
would do, respond to Virginia's unmet needs in higher education 
and work force development. Cost and convenience are the two 
biggest reasons why students choose to attend a community 
college. We are open access. We give everyone a chance. For 
many we offer a second chance. For those of limited means, 
demanding responsibilities, difficult schedules, we offer what 
might be their only chance.
    One example where location and access really makes a big 
difference is rural Virginia. Rural Virginia barely trails the 
rest of the State in high school graduation, in college 
attainment. There we have to convince families who have never 
before needed anything beyond high school, in some cases beyond 
6th grade to get a good job, we have to convince them to send 
their children to college.
    Our Rural Virginia Horseshoe Initiative 10-year goals 
include cutting in half the areas high school dropout rate and 
doubling its college credential completion rate. We are 
pursuing that through student coaching practices and helping 
more students finish short term pathways that lead to 
employment.
    We also serve a huge number of students who begin at their 
community college with the aspirations to eventually transfer 
to a university and complete the bachelor's degree. In 
Virginia, our tuition and fees are approximately 1/3 the 
comparable cost at a public university.
    But let me be very clear. It is rare for a community 
college student to complete an associate degree in 2 years. And 
much of that has to do with life circumstances of those we 
serve. Simply Stated, our students today are older, they're 
poorer, more likely to be first generation, just like I was, 
and they are more likely to attend class part time, not full 
time working a full time job or multiple part time jobs.
    We also have to help more adult students earn post-
secondary credentials. Careers exist today that simply didn't 
when these adults were 18. These opportunities offer family 
sustaining wages, healthcare, a regular schedule, and paid time 
off. They don't require a bachelor's degree but they do require 
skills that we offer in our short term format.
    We call our short term training programs Fast Forward. It's 
our fastest growing segment. These programs are more 
affordable, they're more realistic for adults, the schedules 
work for them, and most importantly these programs fill 
critical business needs.
    In nearly 3 hours, pardon me, 3 years, our colleges put 
more than 13,000 high demand credentials into the Virginia 
economy. Those credentials are business verified as high demand 
and aimed directly at the employer challenge of finding trained 
and skilled employees.
    The ability to use Pell grants for these short-term 
programs would be transformative. We could serve so many more 
students unleashing an incredible engine of economic mobility. 
Our typical Fast Forward student has to come up with about 
$1,000 bucks out of pocket on day one. Survey after survey 
after survey confirms that the amount of $1,000 bucks is simply 
out of reach for too many American families.
    Pell eligibility would make all the difference. Should Pell 
grants be extended to these students I would suggest that you 
do so with a solid system of accountability just like we have 
established in Virginia.
    For the same reason that the Federal Government invests in 
those pursing traditional academic degrees, we should invest in 
those pursing high quality, stackable, postsecondary work force 
credentials and boost America's community colleges as an even 
more powerful engine of economic mobility. Thank you.
    [The statement of Mr. DuBois follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman DAVIS. Thank you. Dr. Boham.

STATEMENT OF SANDRA L. BOHAM, ED.D., PRESIDENT, SALISH KOOTENAI 
                            COLLEGE


    Ms. BOHAM. Kifuke Witnam. Madame Chair and distinguished 
members of the subcommittee, I am Dr. Sandra Boham. I'm an 
enrolled member of the confederated Salish and Kootenai Tribes 
and President of Salish Kootenai College in Pablo, Montana. I'm 
also a member of the board of directors of the American Indian 
Higher Education Consortium and I am very honored to be here to 
speak with you today.
    Tribal colleges are place based, mission focused 
institutions. To tribal colleges and universities, economic 
mobility means preparing individual American Indian and Alaska 
Native students for success as well as strengthening and 
sustaining our tribes, tribal communities, lands, language and 
cultures.
    Salish Kootenai College like all TCU's was established for 
two reasons. One, the near complete failure of the U.S. higher 
education system to address the needs of or even include 
American Indians and Alaskan natives and two, to preserve our 
culture, language, lands, and sovereignty.
    Located in some of the most impoverished, remote, and 
beautiful areas in the Nation, tribal colleges have grown from 
one institution in 1968 to 37 today. Operating 75 campuses in 
16 States. We serve 130,000 students and community members each 
year and from more than 230 federally recognized tribes. My 
home State of Montana has 7 tribal colleges and about half of 
all American Indians enrolled in higher education in Montana 
attend a tribal college.
    Tribal colleges are accredited institutions chartered by 
federally recognized tribes for the Federal Government. All 
tribal colleges offer associate degrees, 16 offer bachelors' 
degrees, and 5 offer masters degrees. All taught from a 
foundation grounded in our tribe's distinctive and resilient 
world views.
    Today, we are facilitating economic growth and 
sustainability. Over the past 45 years, we have developed solid 
work force programs responsive to tribal needs.
    Salish Kootenai College offers bachelor's degrees in forest 
management, hydrology, wildlife, fisheries, education, nursing, 
tribal governance, and tribal historic preservation. We are 
aggressively working to sustain our tribal languages because 
language, culture, and community are essential to native 
student success and completion.
    At SKC we developed a Salish language teacher 
apprenticeship program that includes a yearlong immersion in 
Salish language. We focus on the adults because they are 
essential to teaching our language. For us, the situation is 
critical.
    Just a few years ago, the number of fluent Salish speakers 
fell to 18. Our goal is to educate 40 Salish language teachers 
who will give our children a clear path, clear vision of the 
world as a Salish person and set them on a good path. The 
program is also a path to economic mobility. In the first few 
years, every student who completed the program was hired in the 
local schools.
    This program demonstrates a synergistic dual nature of 
economy mobility in native people. Academic success is 
important, equally important to us is to strengthen our 
community and perpetuate our culture. These twin missions, 
individual and community, are inseparable. We cannot fail at 
either without putting the other at risk.
    A more obvious contributor to the economic mobility is the 
availability of jobs. Through a multi-year partnership with the 
Department of Energy, Tribes and Industries, Salish Kootenai 
College and four other TCU's are establishing advanced 
engineering skills to operate digital manufacturing equipment.
    Salish Kutenai College partnered with Northrup Grumman, the 
United States Air Force, Salish SNK technologies and the 
college to--in a mentor protege program to help us create the 
work force and develop economic opportunities through that 
program.
    As new jobs are created, the tribal colleges will educate 
students to fill those positions. One of the ways we have 
created job creation is that we need a pipeline of skilled 
workers. Because our high school dropout rates are too high, 
and many students were enrolling at SKC unprepared for college 
STEM courses, we developed dual credit. But that wasn't enough. 
So we recently opened a STEM academy for high school juniors 
and seniors.
    Students take classes at their own high school in the 
morning, come to Salish Kootenai College in the afternoon to 
complete their science and math courses and then they are ready 
to enter STEM programs and have doorways open for opportunities 
that they might not have had before.
    The academy is already in its second year of existence 
demonstrating success. Through strategies like this, tribal 
colleges are transforming Native America and Indian country one 
student at a time. Thank you.
    [The statement of Ms. Boham follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman DAVIS. Thank you. Thank you very much and thank 
you all for helping us by being within the time limits. We 
appreciate it.
    If I could, under committee rule, I'm going to move now to 
questioning of witnesses under our 5 minute rule and I will be 
followed by the ranking member and then we will alternate 
between the parties.
    If I could start with you, Dr. Boham. You've spent more 
than 2 decades working with tribal communities and, excuse me, 
in higher education in Montana and in my home State of 
California. And I know that includes working with adults who 
are trying to finish their GED and with upward bound programs 
to improve college access.
    So I wonder if you could just share with us a little more 
really on the personal level how your experience working in 
different facets of higher education and in different tribal 
communities influence your approach to your role as president 
of Salish Kootenai College. What really mattered?
    Ms. BOHAM. Thank you, Madame Chair.
    Chairwoman DAVIS. Thank you.
    Ms. BOHAM. What really matters is opportunity and assisting 
students to believe that they can in fact accomplish anything 
that they set their minds to accomplish. What we know is that 
having a very--and we know this through recent research and 
studies, tribally we have known it for a long time but only 
recently have there been--has there been research done in the 
area.
    But we know that self-efficacy is a key piece in whether 
students will be successful. More than GPA's, more than high 
school graduation or predictive tests of entrance exams, if the 
student is committed and believes that they can accomplish 
their goal, with support they can.
    We also know that a strong sense of who you are and in our 
case that's around your tribal identity, is also key to having 
students be successful in college, in high school and in the 
work force. So we know that base connection to your culture, 
what--at whatever level that is, language, dance, song, skills, 
that is--it creates what we call predictive resiliency and 
protective factors that help students to navigate through 
difficult times.
    Chairwoman DAVIS. Thank you. And does that come from 
individuals, from teachers, professors, etcetera or are there 
actually community members who help contribute to that as well?
    Ms. BOHAM. It comes from all of those things.
    Chairwoman DAVIS. Um-hum.
    Ms. BOHAM. Yes.
    Chairwoman DAVIS. Thank you very much. Dr. McHatton, excuse 
me, McHatton, as we know, universities are cultural hubs and 
they are centers for the community as well and people want to 
be there. They want to experience the university and the 
community setting. I certainly know that is true for CSU's and 
I am wondering how the University of Texas Rio Grande Valley 
ensures the local community is included in campus efforts to 
identify and address local leads including the demand for an 
educated work force.
    How do they find their way to really having a meaningful 
impact on that process?
    Ms. MCHATTON. Great, thank you so much. We have a variety 
of initiatives in which we strive to bring our community into 
our environment. One of the things that we've done is we have 
tried to change the environment so it becomes a family friendly 
environment. And that means that our families feel comfortable 
coming on to our campus, spending time and engaging in 
conversation.
    An important initiative that we have done as a result of 
funding from NSF is to provide culturally responsive 
professional development for our faculty in tandem with 
community members and together they redesigned the syllabi in 
order to utilize the culture and heritage and assets of the 
community as an entree into the content.
    In addition to that, our community engagement and economic 
development center also has opportunities for community to come 
together and have conversations.
    The outreach that we do with economic development centers 
in which we have individuals participating on their boards and 
those types of things also provide important information for us 
to be able to think about what other programs that we should be 
offering.
    Chairwoman DAVIS. Sounds like what you are also doing is 
sustaining that effort with the community which I think is 
really important and always looking for ways to do that because 
sometimes people burn out, right. How do you keep them engaged? 
I mean what--
    Ms. MCHATTON. Well, I have to tell you what we find in our 
community is that there is so much strength and commitment to 
our students and to the education because they know what a 
difference that's going to make. Not just for the individual 
but for the family and also for our region. They give 
willingly. It's just absolutely amazing.
    One example is we have a common area in the College of 
Education. We had a group of community organization individuals 
that came and completely built a brand new garden in that area. 
So we just, we find opportunities for them to come and take 
part.
    Chairwoman DAVIS. Thank you very much. I want to turn now 
to the ranking member or his designate for the purpose of 
questioning the witnesses. Thank you.
    Mr. SMUCKER. Thank you. Dr. DuBois, interested in your 
comments in regards to expanding the Pell grant funds for 
shorter term work force programs. As you know, currently the 
requirements of programs must be at least 1600 or 600 hours in 
length and need to be taught over a span of 15 weeks. You 
mentioned Fast Forward. What--how many weeks do most of your 
fast forward programs last?
    Mr. DUBOIS. Thank you for the question. They last typically 
6 weeks. Some a little longer, some a little less. We have 
completion rates north of 90 percent. We have job placement 
rates similar and we are seeing in looking, on a lookback we 
can see earnings increasing anywhere from 20 to 50 percent. And 
20 percent of the students that we put through these programs 
in the last 3 years before they came to us, they were on public 
assistance and now they're not.
    So these are short term opportunities that lead to jobs 
that employers are really screaming about. Think welding, 
pharmacy technicians, CDL's. Its, increasing of these jobs 
require certifications and licenses.
    Mr. SMUCKER. Great results. What would you recommend as we 
consider changes to the policy? How many hours do you recommend 
that we set for minimum time eligibility requirement?
    Mr. DUBOIS. Six weeks or 150 hours.
    Mr. SMUCKER. Six weeks 150 hours.
    Mr. DUBOIS. Yes, sir.
    Mr. SMUCKER. Thank you. Dr. Verret, I would like to learn a 
little bit more about your student academic success office. 
What types of career pathways have you created through the 
office? Your microphone, yes.
    Mr. VERRET. First of all, we have a great depth in the STEM 
and the professional health areas. We educate more African 
Americans than any university in the country going to become 
MDs. We send more African Americans into doctoral programs of 
advanced science and advanced studies in the sciences. That but 
also we are also very we have students who enter the law, 
social service, teaching professions as well.
    The career pathways programs is to allow students because 
we are a liberal arts and sciences institution, to enable 
students to undersee the plasticity of their degrees because 
very often, students who are coming into history or English 
also have the pathway to medical school if they wish to because 
there is a need of those. Likewise, our chemists become 
attorneys and also may go into policy fields as well for them 
to understand much more broadly what their fields are.
    We are also speaking with our chambers of commerce and also 
the economic the work force as to what are the professions that 
are needed. For example, data science which is reimagining what 
we traditionally teach in computer science for the emerging 
industries, DX is coming to our region to actively think of 
what majors, data science--
    Mr. SMUCKER. I guess those discussion with the chamber are 
leading to a better transition to--
    Mr. VERRET. Yes.
    Mr. SMUCKER [continuing]. jobs after graduation?
    Mr. VERRET. Because we are thinking of what those work 
force needs are but also we also know that many forms of, many 
jobs that we, that will be emerging in the next 5 to 10 years 
we don't, we can't fully envision. So it's also interesting--
educating them to be flexible to have habits of mind, to think 
critically and in depth to be able to form their careers rather 
than just think of their next jobs because we are in a changing 
work force at this time.
    Mr. SMUCKER. How are you integrating that career focus 
curriculum into dual enrollment programs?
    Mr. VERRET. We have dual enrollment programs with some of 
the high schools in our region that send students to us. And 
those, some of those students matriculate to Xavier--some of 
them go to other campuses as well.
    We also have summer programs of long standing in the 
sciences, in language arts, which bring a number of students in 
our, during our summers. Some of them come to our university, 
many of them go to other colleges that is, that has been part 
of our mission.
    Mr. SMUCKER. Are you finding some of those dual enrollment 
programs help students to make choices that would lead to the 
careers that they're interested in?
    Mr. VERRET. It is important to catch the imagination of 
young people early in their lives about, and catch their 
passions as well so that they do not choose and drift away. 
Because one of the struggles for our populations as well is 
understanding that there is a pathway to higher ed. For many of 
us students who are first generation there is no one who can 
actually--and who knows helps navigate. We have to show them 
one of the paths that this is possible and we are engaging 
doing that.
    Mr. SMUCKER. Thank you.
    Chairwoman DAVIS. Thank you. Mr. Takano.
    Mr. TAKANO. Thank you, Chairwoman Davis, for holding this 
important hearing on the role of community colleges and 
minority serving institutions. A report by Harvard economist 
Raj Chetty found that the income and economic mobility of low 
income students increases when they attend minority serving 
institutions.
    Providing proper resources and funding to MSI's is critical 
to ensuring success and income mobility for low income 
students. Now I have two letters from students about the Asian 
American and Native American Pacific Islanders Serving 
Institution programs or AANAPISI.
    One student attends Irvine Valley College in California and 
notes that quote it was not until my time at Irvine Valley 
College I was able finally in a space where I saw others that 
looked like me, met others who understood me, and really got to 
embrace my Asian American identity.
    The other letter is from a student attending Highline 
College in Des Moines, Washington and she wrote the AANAPISI 
program has shown me that I am not alone on this journey and I 
refuse to believe in the saying that quote, ``College is not 
for everyone unquote because I believe--I proved to myself that 
it's possible.''
    This reinforces the critical role that minority serving 
institutions like AANAPISIs have on the growth and success of 
students once they have a sense of belonging and, Madame 
Chairwoman, I would ask that these letters be entered into the 
record.
    Chairwoman DAVIS. So ordered.
    Mr. TAKANO. My first question is to Dr. McHatton. Doctor, 
why is it important to have programs and student support 
services that have a cultural lens to them?
    Ms. MCHATTON. As a Latina myself who did not have a teacher 
that looked like me or talked like me until I was in my PhD 
program, I recognize how important it is to have someone that 
can serve as a mentor and that understands the cultural 
heritage and ideals and values that I believe in.
    I think part of what we really need to ensure is to have 
opportunities to have our students see people who look like 
them as you just read from one of the students that you learned 
but more importantly, to think about how does culture, 
heritage, how does that serve as an entree into content? Into 
helping individuals learn?
    How does language and being bilingual or trilingual benefit 
the access of education? So I think there is a lot of items and 
opportunities that serve to support students in minority 
serving institutions in ways that other institutions may not.
    Mr. TAKANO. Wonderful. Both students mentioned the 
experience they've had because of the AANAPISI program. How 
critical are programs like AANAPISIs to ensuring retention and 
college completion?
    Ms. MCHATTON. I think they're essential. I think one of the 
things as a Hispanic serving institution what we found is the 
strong familial roles and the way that we understand the 
importance of committee--community for our students. We need to 
attend to that because part of that informs the way that our 
students take courses.
    We need to understand that a lot of our students give back 
by working, by supporting part of their family, you know, 
taking care of other siblings, those types of things. So we 
need to think about how do we develop programs that attend to 
that reality for our students and ensure that we provide them 
those opportunities.
    Mr. TAKANO. Well, thank you. I know that over 90 percent of 
the students at the University of Texas Rio Grande Valley self-
identify as Latino and the campus is committed to providing 
educational opportunities that are culturally specific and 
responsive.
    Dr. McHatton, as the vice president who is responsible for 
student success, what does it mean to provide support to 
students?
    Ms. MCHATTON. I think the first thing is that we need to 
demonstrate all the way from upper administration down to our 
staff that all of us are together in this mission to make sure 
that students are successful. We need to think about things 
like student employment. We know that if students are employed 
on campus they're more likely to stay and finish their 
programs. We need to provide advisors that are able to engage 
with them.
    We need to have faculty have the necessary skills to 
understand their role in connecting with students, especially 
for those students in the middle. Our high need students are 
high touch with our advisors but there is a group of students 
that are faculties connect with on a daily basis and they're 
instrumental in making sure that our students are successful. 
So we have a variety of different programs and opportunities so 
that we are sure we are addressing the students from multiple 
points right, multiple touch points.
    Mr. TAKANO. Well, Dr. McHatton, I wish I had more time with 
you but I, my time has run out and I yield back, Madame Chair.
    Chairwoman DAVIS. Thank you. Mr. Guthrie.
    Mr. GUTHRIE. Thank you for having this, Madame Chair, and 
thanks for everybody being here and this committee, the full 
committee has been working together, both sides of the aisle to 
try to figure out how do we reach out to more people. We all 
know there are more jobs with skills than people with skills to 
fill them and that is our, that is the answer to the income 
issues that we need to address as a Nation as you get people 
skilled to move forward.
    And of course we would, I kind of grew up in the model 
where everybody is either expected to go to college or they 
went to work before. That was the area where I lived and if you 
didn't go to college you could go make a middle class income at 
Ford. And I had a professor one time when I was in grad school 
say that if it is going to be low skilled or low educational 
level obtainment required, that is going to go to low skilled 
countries and everything else is going to move to high skilled.
    And as manufacturing has moved back to our country which is 
has, a lot of the low skills just being automated. I mean, that 
is kind of the, what has happened. It is not like they are 
coming back and having massive plants of people working there. 
It is automating what can be routinely done. But what that has 
done is opened up a tremendous opportunity for people who can 
operate the machinery and repair the machinery and program the 
machinery and it doesn't take the 4-year degree to do so.
    And I know it is important that we bring people in at, I 
love Mr. Takano's line of questioning because we have to reach 
the people in--however they can be reached and we have to be 
open to that. But my kind of concern is how do we, the 
nontraditional, Dr. DuBois you talked about it. I wish every 
kid could go from 18 to 22 and be in college and, you know, 
have summers off and do that but it is just not the reality for 
people who are trying to get replugged in because maybe there 
job changed, I mean, their skills aren't, are no longer--either 
they didn't have skills that were required or their skills are 
on longer as valid but there is tremendous opportunity.
    So how do you gentlemen in Virginia because we are very 
similar. Of course we are a few years ago broke off from you 
guys, in Kentucky. We are very, but we have very similar where 
we have urban centers and we have urban community colleges and 
then we try to serve branches where we try to serve more of our 
rural area. And so kind of the challenge of the urban rule, how 
you are reaching rural Virginia, because we are trying how do 
we reach rural Kentucky because lot of times the factories 
aren't there.
    When I say factories I mean these are people who program 
CNC machines. These are highly skilled people who get good 
wages, going to make six figures without a 4-year degree if 
they have these particular skills. So how do you kind of deal 
with the urban rural differences in Virginia that we sort, we 
have also as well in Kentucky.
    Mr. DUBOIS. Thank you for the question. There are adults 
both in rural Kentucky and urban Kentucky. Many of these adults 
are working but they're going, they're living from paycheck to 
paycheck and their entire household is living from paycheck to 
paycheck.
    In Virginia, about 40 percent of our households are one 
emergency away from being in financial stress. Even though 
they're working, many of them hate their job or they want to 
make more money, or both. So when you look at the traditional 
academic menu at a university or a community college, what they 
see is inappropriate because it's a 4-year pathway to an 
associate degree. They can't give you 4 years.
    They have rents, they have car payments, they have kids. 
They can maybe give you 26 weeks because they just got laid off 
and that's how long their unemployment insurance lasts so what 
can we offer in 26 weeks? Perhaps they can give you 6 weeks if 
we offer it right.
    And we do know and your comments I think touched on it, 
that there are very, very good jobs out there that remain 
unfilled that employers want that do not require a bachelor's 
degree but do require something beyond a high school diploma. 
12th grade is no longer the finish line my friends, to have a 
shot at a middle class lifestyle. But you don't need a 
bachelor's degree either.
    So we have pivoted in Virginia to a much more sincere 
interest I think in helping adults. There are a lot more of 
them. And if you've been paying attention to our birthrate, 
there is going to be fewer and fewer and fewer 18 year olds. 
There is many more 25 to 45 year olds that need our help. So we 
have pivoted to try to do more to help adults and they are 
coming to us enrolling in our short term training programs.
    Think of it as they want to have a better life but they 
don't necessarily want a degree on their wall but they want a 
better W2 on their wall. Once they get it, what we are starting 
to see is what's next? Perhaps now that I have some college 
benefits and my employer I might just come back and start 
working on that associate degree. These are stackable kinds of 
pathways. They seem to be working very, very well in Virginia 
and we have had some--we quite frankly we have had some help 
come from the State to try to help us lower the entry level 
price from $4,000 which is way beyond reach to about $1,000 and 
still according to my testimony and our research, is still a 
barrier for lots of Kentucky households and Virginia 
households.
    Mr. GUTHRIE. Thank you. Well, I was going to ask another 
question, my time is expired so I appreciate it and I yield 
back.
    Chairwoman DAVIS. Thank you. Ms. Trahan.
    Ms. TRAHAN. That came faster than I thought, I apologize. 
Thank you so much all of you for being with us here today. This 
testimony is so helpful. You know, I grew up in a working class 
family in Lowell, Massachusetts. I attended public schools my 
whole life and like you, Chancellor DuBois, I was the first 
person in my household to graduate from college.
    In Massachusetts we are fortunate to have some of the best 
public schools and institutions in the country however, high 
quality college degree remains far out of reach for too many 
students, especially students of color and low income. These 
are students who often work two jobs to make ends meet, they 
need to miss classes to take care of their loved ones.
    My district houses a number of community colleges, Mount 
Wachusett, Middlesex and Northern Essex. They educate and 
support diverse student populations.
    These community colleges they offer flexible class 
schedules, so students can come and learn and achieve at a 
lower cost. Unlike certain schools that boast the proportion of 
students that they reject, community colleges take pride in 
educating the top 100 percent of students.
    Because community colleges serve a higher share of 
underrepresented students of color yet receive the lowest share 
of resources to do so, I am wondering if you have any 
recommendations on how the Federal Government could step in to 
address systemic barriers to equal opportunity and ensure that 
community colleges are equipped to be engines of economic 
mobility.
    Mr. DUBOIS. Thank you for the question. For the record, I 
started my teaching career at Northshore Community College.
    Mr. TRAHAN. Oh, terrific.
    Mr. DUBOIS. In Massachusetts.
    Mr. TRAHAN. That's right outside.
    Mr. DUBOIS. A neighbor of yours. Very good question. Our 
students unlike our experiences when we all went to college 
are, they are facing tremendous life difficulties. I think in 
previous testimony this committee heard about some of those 
insecurities around food and housing and, you know, legal 
problems, they have financial problems. Almost when you think 
about it insurmountable. So what can we do?
    Our students need, they don't need academic advisors, they 
need social workers. They need life coaches when we meet them 
on day one. Our students need, they don't speak college. They 
don't know how to navigate college. They need a, think of a 
navigator that worked for us that can see our students as we 
need to get you college ready by day one.
    That, when a student shows up at August 10 and we are 
starting classes 2 weeks later, that's a challenge to get that 
student ready by day one. And the next challenge we have is if 
we can help that student complete the first 5 attempted 
courses, their chances of success really soar. Five out of 5. 
If it's only four out of 5 you can cut their chances in half. 
Three out of 5, cut it in half again. Two out of 5, wasting 
time and money.
    You are right. We are dealing with some of the Nation's 
students that have the most difficult life circumstances and we 
are simply funded at the lowest levels in higher education. We 
have become like the higher education emergency room for 
America. And yet we have to, we have to serve our students with 
essentially a part time work force called adjuncts. I don't 
know of a hospital in the country that would operate with part 
time nurses. So we do need help. It is tough work, 
Congresswoman.
    Ms. TRAHAN. I appreciate that. Especially the coaching and 
the services that are required to keep people on the path to 
gradation and success. You know some students at community 
colleges, they plan to transfer when they are admitted to a 4 
year institution or they continue after receiving their 
associate's degree. But they are faced with, you know, setbacks 
whether its, you know, courses or credits that don't transfer 
easily.
    I am wondering if you have any recommendations on what we 
can do to take the friction out of the system to make it easier 
for students to continue their education. And I say that, I 
direct the question to Chancellor DuBois but certainly if 
anyone else has comment.
    Mr. DUBOIS. I'll be brief. I think one of the things 
Congress can do in reauthorization is simply to require every 
State to have a guaranteed transfer apparatus between, among 
their community colleges and their public universities. That's 
a start.
    We have that in Virginia. We have guaranteed arrangements. 
They work but the problem that we are having, Congresswoman, is 
students typically they get there but they need to spend an 
extra semester because not everything counts.
    Ms. TRAHAN. Right.
    Mr. DUBOIS. Time is the enemy when you look at student 
success. And it's also, it also adds an extra financial burden.
    Ms. TRAHAN. Yes.
    Mr. DUBOIS. So we are working out the kinks but I think at 
a very minimum, Congress should require that there State public 
systems have guaranteed articulation agreements in alignment.
    Ms. TRAHAN. Thank you. Did anyone else want to comment? 
Thank you.
    Mr. VERRET. One of these things that we find essential 
because we receive, we have articulation agreements with our 
local community colleges. To make them effective what we have, 
what we do is to reach students at the beginning of their 
community college experience so they understand the pathways 
that they have to take. So at what course they would need to 
take if they were coming to a psychology major at our 
institution or aspiring to the pharmacy track if you take the 
right chemistry course.
    That discussion of those pathways that we, that we do for 
distinct majors with our neighboring colleges help students 
understand and waste less time. And also that it also tells 
them that they can be part of our community even before they 
are finished their associate's degree as well. Those 
connections are very, should be made very early.
    Chairwoman DAVIS. Thank you very much. Mr. Cline.
    Ms. TRAHAN. Thank you.
    Mr. CLINE. Thank you, Madame Chair. I am glad to see 
Chancellor DuBois here even if he is from Mass. I went to 
college in New England so I went to a lot of, went to school 
with a lot of students from Lowell and suburban Boston and, 
Chancellor, your roots are strong when it comes to higher 
education, you have a great experience up there in 
Massachusetts.
    I want to praise the work of you and your team and the 
Virginia Community College system has done revolutionary work 
and really made Virginia one of the standout programs in the 
country when it comes to community colleges. The flexibility 
that is provided to your institutions to be able to meet the 
needs of the public even in rural areas like mine, has been 
fantastic.
    The innovation that is going on, you decentralize so you 
allow your institutions to meet the needs of your communities 
so Virginia Western in Roanoke is meeting needs that might not 
be happening up in Blue Ridge. Folks down in agriculture Dabney 
Lancaster focused on, you know, it is near the homestead so you 
might have some golf course management courses. You might have 
some dining catering type courses.
    It is a fantastic balance and you are providing that bridge 
where in Buena Vista, Virginia a student at Parry McCluer High 
School can take courses at Dabney in HVAC maintenance and 
repair and then the companies that have found Buena Vista and 
located their HVAC manufacturing operations have located in 
Buena Vista provided free materials to those courses, to those 
students. They work on those--on the--on building these 
machines and then when they graduate they have got a job 
waiting for them.
    They can stay in rural Virginia, raise their family, and 
reinvigorate the school system. Reinvigorate the community. It 
is a fantastic cooperative effort and breaking down those 
transfer barriers between high school and community colleges, 2 
year and 4 year degrees, something Virginia has worked very 
hard to do.
    I have worked to establish the Transfer Grant Program along 
with Chairman Callahan. Worked to set up branch campuses so 
that they have small entities that kind of are satellite 
entities in places where they might not have a lot of 
population. And now we are moving into online courses where we 
are trying to get even the community colleges but especially 
our 4 year institutions to develop agreements where you can put 
a lot of courses online to reach those people who have 
different kinds of schedules.
    All this innovation is happening in Virginia and your 
leadership is to be commended. The one thing I noticed about 
your testimony and I just want to repeat it, you mentioned that 
the typical bachelor's degree graduate leaves Virginia public 
universities with nearly $30,000 in student debt on average, 
correct?
    Mr. DUBOIS. Correct.
    Mr. CLINE. And in the paragraph prior, if you take your 
first 2 years at a community college, get your associates 
degree, transfer to a 4-year institution in Virginia, 4 year 
public, finish your bachelor's degree in 2 years you save more 
than $50,000 on the price of that bachelor's degree. Correct?
    Mr. DUBOIS. That is correct.
    Mr. CLINE. Now I know that's a rare circumstance.
    Mr. DUBOIS. If everything works perfectly.
    Mr. CLINE. Right. And I know that is a rare circumstance 
but you are charting, providing that solution. We have been 
sitting here in hearings asking how do we bring down the cost 
of a college education? And you are providing the solution.
    So when I am confronted with parents who can't get into 
Virginia Techs engineering program because its acceptance rate 
is something like 10, 12 percent, it is amazingly low, I am 
able to provide them with an alternative. Virginia Western has 
the exact same courses you would take at Tech, you are 50 miles 
away. You know, and you are going to be able to save the money 
and transfer to Tech, enjoy those last 2 years at Tech, go 
Hokies, and then finish with a Tech engineering degree which is 
second to none.
    So I am thrilled with what you are doing. I am sorry I, you 
know, I used up all my time praising you but I do want to thank 
you for all the work and thank you for being here today and I, 
if you want to respond to that you are more than welcome.
    Mr. DUBOIS. Thank you, Congressman Cline. We are glad you 
are here, we miss you in the State legislature and its, sir, 
for the record, I'm really from Brooklyn, not Massachusetts. 
But we can in Virginia, we can guarantee that any father or 
mother, that their child can graduate UVA, William and Mary, 
Virginia Tech, James Madison University if they enroll at a 
community college, graduate from a community college at the 
prescribed GPA of the university. And it does work, it has some 
kinks here and there but it does work.
    We can--if you can look for ways to leverage the community 
college you'll be saving tax payers a lot of money.
    Chairwoman DAVIS. Thank you very much. Mr. Castro.
    Mr. CASTRO. Thank you, Chairwoman. Mr. DuBois, I had a 
question for you. I know you can't speak as a representative of 
all community colleges but I spent time in Texas as a vice 
chairman of the higher ed committee for a two terms and a lot 
of the challenges that we had with our community colleges I 
think they provide, they do a great job with many students that 
they transfer to 4 year universities in Texas at least those 
students do better than the students that actually started at 4 
year universities which is a great thing.
    Yet, our community colleges were beset by many challenges. 
Figuring out developmental education, developmental education 
is the graveyard of higher education. Their completion rates in 
Texas at least, our completion rates were lower than a lot of 
high school graduation rates.
    And so part of my concern over the years is that if 
somebody makes their decision just based on cost, in other 
words, going to the cheapest place, they may not necessarily 
have the best chance of finishing off.
    And so what is Virginia, what are community colleges doing 
with articulation agreements with 4 year universities to make 
sure that folks can transfer with development education, with 
all these challenges? How do you assess the improvements that 
have been made over the years?
    Mr. DUBOIS. Thank you for the question. I think you, if you 
look around the Nation increasingly you are going to be finding 
more and more community colleges moving away from the 
developmental education because often it is kind of a bridge to 
nowhere. And instead, they're, your and we are moving that way 
in Virginia. Tennessee is already there, Florida is already 
there.
    Instead of putting students in college courses for the 
first semester with co-requisite help along the way, it is 
difficult work but the research that I'm looking at now, its 
promising to move away from developmental education. Direct 
placement with the help that they need.
    And I would also add like I, in a previous comment, when 
our students come to us, they need someone that can help them 
on day one navigate, get ready, get set, get in the right 
courses, get their financial aid, get their text book 
materials. And then because they have all of this self-doubt, 
they really need people to believe in them and to get through 
those first five courses. If we can do that, we are going to 
help a lot of students.
    Mr. CASTRO. And, Dr. McHatton, I had a question for you. As 
a Texan here at the panel, I was in the legislature we spent a 
lot of time trying to get a medical school that was what was 
then UT PanAm where my wife graduated from school. She is from 
Alton, Texas in the valley. You know, UTRGV is really is the 
anchor university for an area that is millions of people but in 
many ways had been ignored in terms of its educational 
resources for decades. And so we also made strong pushes for 
more doctoral programs for example.
    Can you tell me because I think it is so meaningful to an 
area that is overwhelmingly Latino there, the progress on all 
these fronts? A number of doctoral programs, graduate programs, 
so forth.
    Ms. MCHATTON. So, yes, absolutely. We are thrilled to have 
the school of medicine because it has been a real game changer 
in the region. Over the past couple of years, we have added 
multiple graduate programs so we have got the PhD in clinical 
psychology. We are working on physical therapy. We are looking 
at a podiatry PhD graduate program. We are also doing some 
graduate certificates there is a psychiatric nurse 
practitioner, mental health nurse practitioner.
    We have put in graduate programs in sustainable 
agriculture, teacher leadership, applied behavioral sciences, 
statistics. We have got several on big data, data analytics. We 
have got several biomedical graduate programs, bioethics.
    So what we are trying to do is really assess what are the 
needs within the region and we find that healthcare, the STEM 
fields, and hospitality, we also have a brand new program in 
hospitality and tourism are all fields that are very important 
in that region. So those are the programs that we have engaged 
in trying to develop these new--
    Mr. CASTRO. And how about the graduation rate? You know, 
I'll give you an example. Probably a dozen years ago at UTSA in 
San Antonio, the 6-year graduation rate was 32 percent. Only 32 
percent of people had graduated after 6 years. Where are we on 
that front?
    Ms. MCHATTON. So we just graduated our first class because 
we have really only been in business and operation for 4 years. 
We don't have the data back yet. So our goal is to do a, at 
least to start off with at least a 30 percent 4 year graduation 
rate but clearly our goal is to do much more than that.
    And some of the programs that we have in place, the cap on 
the tuition, the promise programs, those types of things are 
all things that are helping us to try and get students through 
the pipeline in a much more meaningful and timely manner.
    Mr. CASTRO. Thank you, I yield back.
    Chairwoman DAVIS. Thank you. And we now turn to our chair, 
ranking chair of education and labor, Dr. Virginia Foxx.
    Ms. FOXX. Thank you, Madame Chair, and I want to thank our 
witnesses for being here today. Dr. DuBois, you talked about 
the Fast Forward funding program for the students who complete 
the classing credential and that it is designed only to pay 
after the students complete. Did the--I assume the legislature 
set it up this way and why was it designed this way and how has 
that accountability metric been received by community college 
leaders?
    Mr. DUBOIS. Thank you for the question. We actually 
proposed the funding formula that way to the State legislature. 
Most funding formulas if not all of them are on the basis of an 
enrollment. We thought it would be much more attractive to say 
no, we will--we are proposing a funding formula that we will 
receive our funds upon completion. And I think it was 
irresistible. In fact, in the legislature we only got two no 
votes. So it went through.
    So why did we propose it that way? Because we knew by 
research that when we were doing these things when students had 
to pay a lot of money to get in, we knew that their completion 
rates were north of 90 percent. Why is that? Because it's not a 
4-year pathway. Its 6 weeks or 8 weeks or maybe, you know, 
maybe 16 weeks. So we knew we had a good track record so why 
not? Let's propose it as a paid for performance. In fact our 
former Governor brags that it's the Nation's first pay for 
performance.
    It was different for our college leaders so we had to--in 
fact our payment in Virginia comes in two forms. Complete the 
program and then the State gives us an installment of funds and 
then when the student gets the certification of license, we get 
our second installment of support.
    So that caused us, our leaders to develop relationships 
that we didn't have before. For example, with the Department of 
Motor Vehicles. We don't give the CDL test, they do. So we 
needed to form these kinds of, align these data relationships 
so that we could certify that the student completed the 
program. We knew that but then completed the exam and get the 
license or the certification. So it took some changes on our 
part.
    Are there some complaints about the funding from our 
leaders? Sure. But for the most part, it is working. The 
legislature has incrementally increased the funding for this 
program every year for the last 3 years and we still run out of 
money. That's how huge the demand is among employers. If I 
might give an illustration just to drive home the fact.
    Ms. FOXX. If you don't mind, I don't--
    Mr. DUBOIS. Oh, I don't.
    Ms. FOXX. I only have 2 minutes left and I need to ask some 
other questions. I'm happy to you to send that to me.
    Dr. Verret, would you tell me what led you to get those 
dual enrollment programs off the ground and have you seen an 
uptick in enrollment at Xavier as a result? And what are your 
outcomes for students who take dual enrollment?
    Mr. VERRET. Well, our outcome is that they will persist in 
college and continue in college. The programs are based on, in 
our mission because our mission is not just an accomplishment 
at Xavier, but we worry as much that students will never go to 
any college. So our connections with that has been, is a long 
standing mission for us. But they're going to college whether 
they come to Xavier or not, is to us a success as long as they 
go to college.
    Ms. FOXX. Right. And nobody has mentioned this but the 
research shows that students who take one dual enrollment 
course are three times more likely to graduate and others of 
you have not emphasized that very much. But this is an area I 
have a great deal of interest in is working on dual enrollment 
because we know it is so successful.
    I just have one more comment. Dr. DuBois, I have to just 
take exception to your suggestion that the Federal Government 
requires States to have articulation agreements. I really don't 
see--nowhere is the word education in the constitution. We 
ought not to be involved in education at all but to involve 
the--involve us more to tell the States to do something they 
are already doing or most of them are already doing, you have 
articulated that yourself. And that we know works, I don't 
understand why the leadership in the States don't understand 
what you understand.
    Time is more valuable than money and, I mean, you can 
always replace money. You cannot replace time. And so requiring 
students to--who are going to a baccalaureate program to repeat 
courses is irresponsible on the part of the educational 
institutions. And the citizens should be demanding that not be 
allowed to happen. Thank you all again very much. I yield back.
    Chairwoman DAVIS. Thank you. I now turn to Mr. Sablan.
    Mr. SABLAN. Thank you very much. Good morning to all our 
witnesses. Madame Chair, thank you very much for this series of 
hearings on issues that I hope will lead to the, a robust 
Higher Education Act reauthorization. And but particularly this 
latest hearing on minority serving institutions is important to 
me.
    I as chair of the other education subcommittee, I was--
always it broke my heart and some of the programs, failures of 
programs under the Bureau of Indian Education for early 
childhood K through 12. But, Dr. Boham, today your testimony 
gives me some hope and I really like but.
    So your testimony States that your college and Oglala 
Lakota College call it the Nation in preparing and graduating 
Native American nurses with more than 90 percent of their 
graduates certified as registered nurses and working in local 
community settings.
    You also testified that before Oglala Lakota college or OLC 
launched its nursing program, none of the nurses employed by 
the Indian Health Service to work on the Pine Ridge Reservation 
in South Dakota were native. Of the 70 nurses working on the 
reservation in 2013 80 percent were OLC graduates. 
Congratulations.
    What can small community colleges like the one I have in 
the Marianas in my district, what can these colleges with 
health work force shortages and high indigenous populations 
learn from Salish who take Salish Kootenai College success?
    Ms. BOHAM. Thank you for that question. Part of what we do 
really well in our nursing program is we create culturally 
confident healthcare so we are caring for our own and you have 
heard from other witnesses that our communities' value and one 
of their primary motivators is the opportunity to give back 
into the community. And I think our nursing programs exemplify 
that need and concern and wish to give back.
    Part of what we also do around our nursing program and we 
have implemented it college wide but particularly in our 
nursing program where students have high stress, demanding 
academic requirements, and clinical requirements as well, we 
provide wrap around services as well. So we have early alert 
systems and if students are beginning to show stress or look 
like they might be faltering, the early alert system is 
accessible from our custodial staff to me.
    And if we see a student that maybe we are used to seeing 
every day and we haven't seen them for a day or they miss a 
class, we have an electronic system where an actual person goes 
then to find this individual and make sure everything is okay. 
And if there are issues, we connect them to services and 
resources.
    We know that because nursing is the kind of demanding 
program it is that it's really important to have preschool 
services available for women and young men who are primary 
caregivers to their children. But I think overall, the big 
thing is that culturally confident, culturally congruent care. 
We want to take care of our--
    Mr. SABLAN. Right. Dr. Boham again, I, you provided a ray 
of light, I mean, you have--that it is possible to break this 
chain in native or in American--Native American schools and I 
am encouraged.
    My time is up so I will submit other questions for the 
other witnesses but congratulations is not a word I would use 
because this is a small step but I hope it grows not just with 
your program but also to other places and in our country like 
the Northern Marinas where we have a small community college 
and we have a huge need for work force investment.
    Madame Chair, thank you very much for today's hearing and I 
yield back.
    Chairwoman DAVIS. Thank you. Mr. Watkins.
    Mr. WATKINS. Thank you, Madame Chair, and thanks to the 
panel for being here. Every American deserves a chance to seek 
post-secondary education regardless of the circumstances. I 
have seen firsthand how the tribal colleges and universities 
are providing tribal students with the education they need for 
the future employment of their chosen profession.
    I am proud to say that in my district we have Haskell 
Indian Nations University in Lawrence, Kansas. Haskell is 
dedicated to building the leadership capacity of the students, 
providing well rounded extracurricular and education 
opportunities.
    A few months ago I had the pleasure of speaking with 
several of the students as they came here to D.C. During the 
discussion it was clear that the students were desired to 
remain local after graduation and serve their tribes and their 
communities. To that end, it becomes essential for the tribal 
college and universities to develop career pathways for their 
students by expanding partnerships between TCU's and local 
employers.
    Dr. Boham, in your testimony you mentioned that your tribal 
college has developed a strong model for work force development 
offering education and development programs that are responsive 
to local employer needs. Could you please explain the 
partnership between your college and the local employers that 
foster this cooperation? Speaking specifically to how it's 
benefited your students post-graduation?
    Ms. BOHAM. Thank you. We, first of all, we work with our 
tribal economic development and organization and so they do 
economic development studies once every 5 years and gather 
through surveys of the membership as well as employers and 
tribal entities in the community what the projected employment 
needs are and what areas people are interested in looking for 
work in.
    We also partner with our county J-sec or job counsel and so 
we are connected to them and they're also looking--it consists 
of employers. And so they come to a meeting once a month and we 
talk about what's going on in the economics of the community 
and what jobs we are needing and what jobs people are phasing 
out of.
    But at Salish Kootenai College because we serve 200--well, 
we serve about 70 different tribes at any given time, we have 
branched our relationships out beyond just our local community 
for the students that are going to be returning to their 
communities and we work with their tribal colleges or with 
their job development people at the State level just for those 
same kinds of information and trends.
    The other thing that we do is we have an extensive 
internship program on a national level. And so we have to 
develop a lot of partnerships so that students get that 
internship opportunity so they know what the work is going to 
be like, they create those relationships for themselves within 
those professional arenas and that's a huge piece.
    And then we also have developed something similar to our 
friend here in that we in listening to our employers and 
looking at what they need, we have built almost all of our 1 
year and 2 year programs that are aimed at folks needing to get 
employment to be in stackable certificates.
    So they can take a 1-year program but it's all broken down 
into pieces and so if they start and then they need to go to 
work for a little bit and then come back, they will have a 
credential that will allow them to stop out and return without 
losing time, money. And it also provides for those that need to 
work through their college career, it will allow them a livable 
wage, maybe it's an EMT certificate or it might be a phlebotomy 
certificate or it might be a flagging certificate that will 
allow them to continue to work while they're going to college 
with a wage that's above minimum wage.
    Mr. WATKINS. Well, thank you, doctor, appreciate it. Madame 
Chair, I yield back my time.
    Chairwoman DAVIS. Thank you. Ms. Bonamici.
    Ms. BONAMICI. Thank you, Chair Davis, and Ranking Member 
Smucker. And with all due respect to Dr. Foxx, there is a 
Federal role in education and it's an important one.
    The Federal--many of the Federal laws in education came out 
of the Civil Rights Era and as we approach the Higher Education 
Act reauthorization, I think we need to really honor that by 
promoting equity and safeguarding the opportunities for 
everyone to get a higher education.
    And of course the HBCU's and minority serving institutions 
and community colleges are a really important part of meeting 
that equity role and we need to make sure that you all have the 
resources and the policies to help your students succeed.
    I want to start by congratulating Dr. McHatton for your 
universities national chess championship which I understand is 
twice in a row. I have long been supportive of chess education, 
especially in the K12 system, tremendous academic benefits but 
I wanted to say congratulations. That's a big accomplishment.
    But I want to start with Dr. DuBois. Thank you for your 
testimony today talking about your--Virginia's community 
college system. I am also a community college graduate. I went 
on after my great 2 year legal assistant program to get a 
bachelor's degree and a law degree both at the University of 
Oregon. So I would--I know firsthand the critical role that 
community colleges play in opening doors of opportunity because 
they opened doors of opportunity for me.
    In my home State of Oregon, the community colleges 
typically serve large populations of students of color, low 
income students. They are doing some innovative work but 
challenges remain, especially the resource challenge and the 
obstacles encountered by students that deter completion.
    A couple of those you mentioned in your testimony, 
homelessness and food insecurity. And I saw your story about 
the student who couldn't concentrate and he went in to speak to 
the professor and ended up staring at the granola bar on his 
desk because he--and he hadn't eaten for 2 days.
    So can you talk a little bit about how your colleges are 
addressing homelessness and food insecurity and also 
importantly, what the Federal Government can do to help with 
that area?
    Mr. DUBOIS. Thank you. Thank you for the question. You 
know, admittedly these student insecurities are becoming much 
more of the dialog of the day with community college leaders. I 
mean, who would have thought that we have students that 
occasionally have to live in a car or going hungry. I mean, so 
what are some of the things that we are doing?
    We are not doing enough. We now have food pantries at all 
of our community colleges but we can't food pantry ourselves 
out of this. We need faculty and staff that know how to help 
someone who is eligible for SNAP sign up for it, sign up for 
SNAP. The--Pell is critical for these students. They also need 
actually more help than that because--
    Ms. BONAMICI. Right.
    Mr. DUBOIS [continuing]. Pell will cover the mandatory 
costs to attend but these students are facing all of these 
other kinds of difficulty so we are doing everything from 
asking the philanthropic community to step up. The best 
philanthropic dollar I think that we can raise now is for 
student emergency funds.
    I mean, and students don't have just one emergency. So we 
are--we are doing all that we can with the resources that we 
have, Congresswoman, but we run out of those resources very, 
very quickly.
    Ms. BONAMICI. Thank you. And I want to try to get another 
question in but I appreciate your response and certainly making 
sure that we are funding SNAP and Pell grants is critical.
    Dr. Verret, thank you so much for being here. I read your 
impressive background. I am the founder and co-chair of the 
congressional STEAM Caucus where we advocate for integrating 
arts and design into STEM fields. Because No. 1, it helps 
students become more creative and innovative and No. 2, it 
reaches more students, especially as students are going through 
the K12 system.
    I have toured, we have nationally recognized STEAM 
elementary schools that are really engaging students and 
helping them to be creative. So I wanted to talk about how, I 
know you have 70 percent of your, of Xavier's student body is 
female and I am excited, I'm also on the science committee and 
we are always talking about getting more women into science 
technology, engineering, math, I call STEAM.
    So how do you create a campus environment that encourages 
your female students to pursue those careers that are typically 
male dominated and white?
    Mr. VERRET. Well, if I would use a line from St. Francis of 
Assisi, that if you are preaching preach by example. The 
examples that we have before them on the faculty, women faculty 
want leadership who are researchers who are scientists who are 
engaged. That has been there at Xavier. I remind you that 
Xavier was the first Catholic university, college or university 
that allowed women and men to attend classes together. It was, 
it did not exist except that Katherine Drexel pushed it. So 
that, so in many ways, the sisters who founded us were 
feminists before the word was coined.
    But the other piece is that we have now women on leadership 
and what embraces all of our students is a culture of 
expectations. We expect students to rise high to reach high. 
And we show them that it's possible because others have done it 
before them.
    It also even applies to what we are seeing as an emerging 
crises on the other side that we are seeing a dearth of young 
males who are succeeding from K through 12 and who are 
exceeding to college as well. And we have had initiatives as 
well to reach out to them as well.
    Ms. BONAMICI. Terrific. And I see my time is expired.
    Mr. VERRET. Everyone succeeds together.
    Ms. BONAMICI. Thank you so much. I yield back.
    Chairwoman DAVIS. Thank you. Mr. Grothman.
    Mr. GROTHMAN. Yes. My question is meant for Mr.--first 
question for Mr. Verret, I don't know if have that right. 
Looked at your background, very impressive, and again 
congratulations on all you are doing at Xavier. I noticed prior 
to being at Xavier, you also had an executive position at 
Savannah State University.
    A couple hearings ago, you know, you can take it or leave 
it, but a couple hearings ago, we had a hearing based on the 
idea that we had to have more Federal involvement because we 
had too many schools that were too segregated and the 
implication being that schools that were too much of one racial 
background or the other was a real problem.
    Now we have a situation here in which we are calling for 
more money for historically black colleges. And I--you have 
done a tremendous job, I have no problem with putting more 
money in historical black colleges.
    The only thing I kind of wonder here where we are getting 
mixed messages on this committee whether it is really, really 
important to weigh in and make sure every high school is more 
segregated or, you know, and given your background and the 
success you have had at Savannah State and Xavier, I wondered 
if you would care to comment on that issue?
    Mr. VERRET. The first thing I would say is that the 
historically black colleges were never segregated except by 
law. But even at Xavier in the 30's and 40's we had students 
who were African, who were white at Xavier who could not 
receive their degree legally in Louisiana therefore their 
degree was awarded by Villanova.
    So we were always open to--we have others who, we have 
students who are not African Americans at Xavier who are with 
us and they have been with us before. But what I would say is 
that these HBCU's have been engines of bringing African 
Americans into the creative work force for this country and 
also of engines of social mobility.
    And they continue to produce. The country needs that 
talent, you know, because remember our talent base is what we 
cultivate in this country. What is happening in the TCU's also 
in the Hispanic colleges as well is about creating talent for 
this country.
    These schools when we produce, overproduce, punch above our 
weight, in educating students who become doctors, lawyers, 
policymakers, in all the fields that the country needs that's 
what we do. Investing in these countries--in these is not 
individual benefit for these students, it's a benefit for their 
communities and for their regions.
    Mr. GROTHMAN. No, I am not denying that you are doing a 
tremendous job. I am just wondering on the larger issue if you 
had a comment.
    Mr. VERRET. What I'm saying is that it's important that to 
help students engage with students of all ethnicities and they 
do.
    Mr. GROTHMAN. Okay.
    Mr. VERRET. Our students in our communities they work in 
hospitals and--
    Mr. GROTHMAN. Okay.
    Mr. VERRET [continuing]. and in our communities. They are 
interned throughout communities. Students from Tulane and 
Loyola engage with our students as well. So our students 
actually are very well integrated and others are welcome to us 
as well.
    Mr. GROTHMAN. Thank you.
    Mr. VERRET. And that's always happened.
    Mr. GROTHMAN. Thank you. I think all of you at some point 
or other in your testimony talked about poverty and the 
importance of lifting people out of poverty. And I wondered if 
you had any comments having dealt with so many people who at 
least by the Federal definition of poverty are in poverty. If 
there are anything you noticed about those families compared to 
other family units, that sort of thing, and if you are doing 
anything to make sure that the next generation or the 
generation that you touch that their children don't wind up in 
poverty? Yes, Mr. Verret.
    Mr. VERRET. If I may say, one of the--what we have seen not 
only in recent history but in also in the decades and almost 
century that we have been that our students when they receive a 
degree, this is not something that benefits them alone. It 
touches their families. What we see is that suddenly the 
nephews are coming to college, the sons, we are opening new 
doors. The benefit, there is a cascading effect that we see. So 
what we are seeing is that they do not return to poverty but 
what they do they lift communities out of poverty.
    Mr. GROTHMAN. Okay. And do any of the others you have any 
observations on what type of situation the Federal Government 
defines as a family in poverty and what you will do to make 
sure that the next generation does not wind up in poverty? 
Could you make any observations as to that?
    Mr. DUBOIS. Just very quickly, the best thing I think we 
can do is to help an individual get a post-secondary credential 
and--
    Mr. GROTHMAN. Are there no observations you have as to the 
type of you said you deal with your students the type of family 
situation that results in something being referred to as 
poverty? You don't know? Your mind is a blank?
    Mr. DUBOIS. No, the--we have poverty in our rural areas and 
we have poverty in our inner cities. The best--best that we can 
do is help them get a post-secondary credential because 12th 
grade is no longer the finish line.
    Chairwoman DAVIS. Thank you, Mr. Grothman, your time is up. 
Ms. Adams.
    Ms. ADAMS. Thank you, Madame Chairwoman, and thank you to 
the ranking member as well and thank you for your testimony. 
You know, where you start out in life doesn't have to determine 
where you are going to end up or just how far you can go.
    I grew up in poverty myself, poor black girl growing up in 
Newark, New Jersey but education is the pathway to greater 
opportunity. Most of you may know that my background of in 
terms of historically black colleges and universities are 
particularly important to me.
    I just said I taught on the campus at Bennett College in 
Greensboro for 40 years. I am a two time graduate of an HBCU, 
North Carolina A&T. And one of the first things I did when I 
got here was to put together the bipartisan HBCU Caucus with my 
colleague and now my cochair, Bradley Byrne. We have got 88 
members and some of them have been here today.
    We have accomplished a lot for our HBCU's but as has been 
already revealed today, Dr. Verret, thank you very much for 
being here and all that you are doing to make Xavier University 
our premier HBCU for graduating black doctors.
    I mean, if you look at the statistics, and to my colleagues 
while we only make up 3 percent of all colleges and 
universities, HBCU's are producing 17 percent of all bachelor's 
degrees that are earned by African American students, 24 
percent of all STEM graduates. So we have been producers. We 
have had little but we have done much.
    And, Dr. Verret, what is unique about the HBCU campus 
environment that attracts students?
    Mr. VERRET. I would say first of all is the culture of 
expectation. We expect them to succeed and expectations 
students rise to that. We embrace, we have a faculty that will 
embrace students and recognize that they--what they need 
individually we will address. We do that.
    Ms. ADAMS. Okay.
    Mr. VERRET. The other piece that is crucial is that we have 
the example of those who have come before them which is 
important to them as well.
    But the expectation piece is what I would call the secret 
sauce in the element because when we--when students come to us, 
many of them don't, may not have the education that they 
deserve. And students do not choose the schools they go to. So 
whatever gaps they may have, we meet them in their first year 
and help them repair. And what is amazing, what happens at the 
end.
    Ms. ADAMS. Yes, sir, I know. You filled some gaps for me. 
What sort of specific strategies do you use in creating a 
program and degree offerings that meet the job market demand? 
We have talked a lot about job market demand here.
    Mr. VERRET. Well, the HBCU's have been--first of all we 
educate our students very broadly which it gives them a lot of 
flexibility. Some of them go on to many levels and readapt to 
their jobs as they have to.
    Ms. ADAMS. Okay.
    Mr. VERRET. But what they do have is they have learned to 
work hard and on complex matters at HBCU's. And they become 
masters of their fields. But I also want to thank you for 
starting the HBCU Caucus. That has been a very important way of 
getting our voice here at--
    Ms. ADAMS. Great. Thank you and thank you for your 
participation. What strategies could Congress pursue to make 
your job easier?
    Mr. VERRET. I'll begin the first one because affordability 
is a challenge for us.
    Ms. ADAMS. Okay.
    Mr. VERRET. We have our students who are Pell eligible in 
the lowest--in the lower 2/5 of the socioeconomic income 
distribution ladder. Those students, a small crisis in their 
families can lead to students not persisting and that we do 
see.
    Pell is crucial to us. Pell is critical to the HBCU 
community because we have 50 percent or more on most of our 
campus of students are Pell eligible. And that is the major 
struggle for us.
    Helping our students pay for college is an important piece. 
Pell is something that we cannot tell you more how important it 
is and that we want to see you do more for us.
    Ms. ADAMS. Absolutely. Could you elaborate on how or 
whether your local work force boards or chambers assisting in 
that regard in terms of aligning your programs with future work 
force needs?
    Mr. VERRET. They do and also we are engaged with them and 
also in creating internships where our students get to sample 
and practice while they are there. With our economic 
development agencies and also with our chambers of commerce we 
work closely to create internships for our students.
    So our students very often before while in their second or 
third year have practical experiences whether in the 
laboratories or whether it is in clinical or the work force 
settings.
    Ms. ADAMS. All right. Thank you very much. I just want to 
end with a comment that I always like to remember by W.E.B. 
DuBois who said of all of the civil rights for which the world 
has struggled and fought for 500 years, the right to learn is 
undoubtedly the most fundamental.
    Thank you all for believing in that right and thank you all 
for being here today. Madame Chair, I yield back.
    Chairwoman DAVIS. Thank you. Thank you. Mr. Levin.
    Mr. LEVIN. Oh, thank you, Madame Chairwoman. Well, thank 
you all so much for being here. I want to ask you about the 
situation of students when they come to you.
    Dr. DuBois, when I was running the Michigan work force 
system some years ago, something like 60 percent of students 
coming to community colleges nationally needed to start with 
remedial education of some kind. Is that still the case?
    Mr. DUBOIS. Yes, sir, in mathematics typically.
    Mr. LEVIN. And so can you talk to us about your connection 
in Virginia with the whole adult education system for people 
who because I know many of your students aren't coming straight 
from high school. And what we should do to better connect adult 
basic education with community college. My observation is that 
we--the systems are generally completely disconnected. Often AV 
is connected in the K12 education system. Very rarely is the 
instruction offered contextualized for a career pathway--
    Mr. DUBOIS. Right.
    Mr. LEVIN [continuing]. for a person. So I would appreciate 
your comments on that and I am very curious about what the 
situation is in HBCU's too, Dr. Verret. So I would like, you 
know, afterwards I would like to hear your thoughts.
    Mr. DUBOIS. Thank you for the question. In Virginia, the 
adult basic education world is a centrally a K12 sector 
responsibility. Having said that though, a number of 
superintendents have kind of subcontracted that out with their 
community colleges. I do believe that adults need to go to 
adult places.
    And my--this is my editorial. Many of these adults they 
come to us because they want a job. They want a better job.
    Mr. LEVIN. That's right.
    Mr. DUBOIS. And we should be putting more of them into a 
contextualized, applied, short time--short term pathway to get 
to that job. Once they get that job, I think they will raise 
the bar and move on with higher educational goals. But I agree 
with your preface that these pathways should be contextualized, 
applied in a vocational career area.
    Mr. LEVIN. Dr. Verret.
    Mr. VERRET. Well, I would agree with my colleague as well 
but I would also say that one of the remedial issue that you 
point to is the fact that many of our students do not get the 
pre collegiate preparation that they need. And I would extend 
it beyond mathematics because what we have found out is 
actually language arts are more of a barrier to mathematics and 
also to physics and to chemistry and everything, and to history 
as well.
    So that we have people, students who are getting degrees 
who may have high GPA's but that the ACT's and the SAT's don't 
seem to match. That is one of the crimes that is occurring in 
many ways that we are not getting the right teachers.
    And I would speak for the investment into K through 12 as 
well as to make our work much more doable. Being able to 
actually resource teachers because I do think great teachers 
really matter and we have not invested in our teaching 
profession especially in the K through 12 fields. And that's as 
essential as anything else this country could need.
    Mr. LEVIN. Well, in other countries, teachers are the 
people say lawyer, doctor, engineer, accountant, teacher, and 
we pay our teachers in this country much less than other 
professionals.
    Mr. VERRET. Right.
    Mr. LEVIN. We don't invest in them properly.
    Mr. VERRET. And our investment in teacher, in educating 
teachers is because of not only for a mission but we know that 
the work of building society is educating great teachers and 
getting them to our classrooms is crucial. We don't get away by 
skipping them.
    Mr. LEVIN. But let me just say don't we know what needs to 
be done here, don't we? I mean, for example if someone is 
learning English and they need, they come really for a job, for 
a career, so they can support their family. If we teach them 
Dick and Jane ran up the hill, they are going to stop coming.
    If we find out well, they could be an x-ray tech or they 
should be in a CNC operator and if we start talking--teaching 
them their basic skills tied to a career pathway they come 
back, right? And in that adult context as you say.
    So can someone give me some, I mean, I ran the Michigan 
work force system from 2007 to early 2011. Are we making any 
progress here in this regard nationally?
    Mr. DUBOIS. Just quickly I think in Virginia we are making 
our progress through our Fast Forward programs where we are 
simply an adult that needs help and to get some training we 
don't require the GED to be a welder. You need some basic 
reading skills to be a truck driver. Not necessarily, you don't 
necessarily have to have a high school diploma or equivalent.
    So we are, we have moved into more and more into that 
direction helping adults secure employment through short term 
training programs.
    Chairwoman DAVIS. Thank you. Mr. Trone, you are next.
    Mr. TRONE. Thank you, Madame Chairwoman Davis, Chairwoman 
Davis and Ranking Member Smucker for holding this hearing, and 
thank you to our witnesses.
    We know the community colleges and historically black 
colleges and universities and other minority serving 
institutions play a key role in providing college opportunities 
for low income students and students of color. We also know 
that while these institutions are doing the most work to close 
that achievement gap in advanced economic mobility they are 
severely under resourced.
    It is great to see the committee coming together in a 
bipartisan way to prioritize and address this issue and I look 
forward to working with all of you on this.
    Madame Chairwoman, I would like to enter into the record 
this report by the United Negro College Fund which is led by my 
close friend, Michael Lomax, who actually was the emcee when I 
was sworn in to Congress at our event just recently. And 
entitled the HBCU's make America strong, the positive impact of 
historically black colleges and universities.
    Chairwoman DAVIS. So ordered.
    Mr. TRONE. Thank you. The 2017 report found that the total 
economic impact in the U.S. is 14.8 billion annually, the 
equivalent of ranking among the top 200 corporations on the 
Fortune 500 list.
    In Maryland we have 4 HBCU's that generate a billion 
dollars in economic output and 10,000 jobs. A Maryland graduate 
can expect to make a million dollars more a year due to that 
credential.
    So, Dr. Verret, if we strengthened Federal investments at 
HBCU's, what do you see, what does it look like on long term 
ROI by making this investment look like? What is the return on 
investment?
    Mr. VERRET. The return investment is huge because right now 
it is critical that we, that we develop our talents. The talent 
that we have to build our new industries, whether it's the 
digital industries, it's the high tech industries and also our 
creative industries whether it's the movie industry, etcetera, 
is from these young people. That talent that we leave on the 
table underserves us because other countries I know are doing a 
real good job of educating their talents and they're not 
willing to share it.
    Mr. TRONE. Right. So we are building our diversity, we are 
building our diversity with better ways and different ways to 
look at the problems and challenges we have.
    Mr. VERRET. The creative minds that we have on the table 
and in our second and third grades should not be wasted.
    Mr. TRONE. Absolutely. Dr. DuBois, I know you have 
extensive experience in both community college systems and the 
criminal justice space. A top priority of mine is criminal 
justice reform. I believe the impact of education on these 
individuals that have been incarcerated, society as a whole is 
crucial.
    Research from Rand Corporation found that incarcerated 
individuals participated in education while in the correctional 
institution decreased recidivism 43 percent. How do we best 
strengthen and expand high quality education opportunities for 
justice impacted individuals and what would that impact on this 
be?
    Mr. DUBOIS. Thank you for the question. In the mid-90's I 
taught in Attica State Prison, a maximum security prison with 
Genesee Community College. So it's something I'm very familiar 
with. The research is clear, most prisoners are going to be 
released within 3 years. 90 something percent.
    Do we want--what do we want them armed with? A future? And 
if we do its going to be some kind of educational credential 
because the recidivism rates have been clear over 25 years. At 
one time the Federal Government was supporting prisoners 
through Pell. I think we have one college that participated in 
an experimental program with Pell. We would welcome the 
opportunity to receive more Pell support for incarcerated 
students.
    Mr. TRONE. Have you seen a State that's done a best case 
job in this area? Sometimes I hear Alabama but have you, do you 
know, anybody know of a State that's really worked with 
community colleges and correctional institutions hand in hand 
to help address this disaster?
    Mr. DUBOIS. In the 90's in New York, of the 30 community 
colleges of New York we probably had about 14 or 15 of them 
very involved in inmate higher education. It was a lot of 
research that was done back in those days. I can certainly make 
that available to you.
    Mr. TRONE. How do we help students in Virginia with their 
mental health disabilities? How do we get more money focused on 
that? What should we be doing to help you there?
    Mr. DUBOIS. That's a great question. I mean, we are 
struggling with that question just as we speak. It was only 
just 2 weeks ago where I announced a major task force on this 
very, very issue of student insecurities including mental 
health, financial problems, legal problems. These are the 
students that are coming to us today. We are, you know, we need 
answers, more and more answers to that kind of a situation.
    Chairwoman DAVIS. Thank you. Mr. Timmons.
    Mr. TIMMONS. Thank you, Madame Chairwoman, and thank you 
each for coming to testify before this subcommittee. I am going 
to begin.
    Dr. Verret, Xavier University of Louisiana has created an 
emergency fund to cover unanticipated student expenses. How are 
you able to establish this grant funding and what have the 
results been for students who end up needing this unexpected 
money?
    Mr. VERRET. Well, the emergency fund was founded 4 years 
ago when I arrived and it was first funded by--through alumni, 
our alumni, and also other friends of Xavier who were not 
alumni. Some members of the board, others have contributed into 
this fund.
    We have raised these funds because we have, we are aware 
that there are students who are in good academic standing, 
especially as they are in their third or fourth year about to 
finish while at risk of not persisting. It may be from tuition 
funding but it also may be other things for example clothing, a 
crisis, at home medical crisis and we apply that. It's small 
because we are not a rich institution and we do need more. But 
it parallels what my friends have been speaking about other 
needs including housing needs because we do give housing 
scholarships for homeless students.
    As we, in fact we have received the calls from homeless 
shelters that you have a student here, do you know about this? 
And those--and we have ways of responding. We need to respond. 
So we need resources to meet those needs.
    Mr. TIMMONS. Thank you. Do you have a ballpark of how much 
has been put into the fund or the average--
    Mr. VERRET. The average year we had somewhere around 
between $100 and $200,000 in the fund.
    Mr. TIMMONS. Thank you. Also, Dr. Verret, you note in your 
written remarks that a challenge for many students of color is 
their preparedness for college level course work. What are you 
doing to increase student retention at Xavier, particularly for 
those students who may struggle in their first year?
    Mr. VERRET. I would say it's not only for students of color 
but it clearly affects our urban students especially but what 
happens is that what we have is our in the first year our 
diagnostics early alert program would tell us students in their 
first, early first semester that there are needs. They are 
brought to our students' academic support. They are given 
academic support and make sure that the individualized tutoring 
that they need in certain areas is provided.
    We have--remember, Xavier does not, is not a selective 
institution. We have students from 18 to 34 on the SAT's. Those 
but those students who are in greater need, we are seeing 
progress because last year we saw especially among the group of 
greater pre collegiate challenges that their retention numbers 
have gone up significantly.
    Mr. TIMMONS. Do you think that this program could be 
modeled for other HBCU's?
    Mr. VERRET. It could be modeled for almost any other 
institution.
    Mr. TIMMONS. Okay. Thank you. Dr. Boham, you mentioned a 
TCU innovation core initiative to help entrepreneurs put their 
ideas into action. What are the goals behind this initiative? 
How do you anticipate the program will work and what are the 
expected results for students and local economies?
    Dr. Boham. Sorry. I'll give you the question again. You 
mentioned a TCU innovation core initiative to help 
entrepreneurs put their ideas into action. What are the goals 
behind this initiative? How do you anticipate the program will 
work and what are the expected results for students in local 
economies?
    Ms. BOHAM. The TCU innovation core, ICORE is built around 
the concept that in the research and work that students are 
doing with particularly science programs that they would find 
marketable patent programs that could then be scaled up and 
marketed to build the economy through creating new jobs and new 
enterprises.
    Mr. TIMMONS. Thank you. I yield back the balance of my 
time.
    Chairwoman DAVIS. Thank you. Ms. Wild.
    Ms. WILD. Thank you, Madame Chairwoman, and thank you to 
the panel for being here to speak today on this very important 
subject. I will tell you I am not a member of this subcommittee 
but I came to hear what I could of your testimony and have read 
your testimonies because I feel that this is such an important 
area for us to cover in this committee.
    I am a representative from the 7th District of 
Pennsylvania, the Lehigh Valley of Pennsylvania, Allentown, 
Bethlehem, Easton area where we have a wealth of institutions 
of higher learning.
    We have several very fine private 4 year colleges. We have 
a smaller parochial private college. We have a State school. 
But the pride and joy of our community are two incredibly good 
community colleges. Lehigh Carbon Community College and North 
Hampton County or North Hampton Community College.
    These two schools in my district are such high quality they 
offer a range of academic and career training programs. The 
statistics on those two schools is that after graduation from 
the 2-year programs, 93 to 94 percent of their alumni are 
either continuing their education or in a career. And I think 
that's a statistic to be so incredibly proud of. And both also 
serve a large population of students of color.
    Lehigh Carbon Community College is a Hispanic serving 
institution. North Hampton Community College is the No. 1 
associate degree granting college in Pennsylvania for Latinos. 
So if I seem like I am bursting with pride, I am a little bit 
about those two schools.
    Having said that, I have visited both of those schools 
since I was elected and I have learned from their 
administration about some of the challenges that the 
administration faces because in the face of constant decreases 
in funding, these kinds of schools, not just these two in my 
district, but these kinds of schools across the country, that 
are struggling so much to keep from raising tuition for their 
students. And by and large are doing a pretty good job of it 
but that money has to be taken from somewhere.
    And so what I am consistently hearing from them is that the 
schools are contracting the services that they provide to 
students. And that is--that too is a real harm to the students.
    And I would like you perhaps, Dr. McHatton, to address--
well first, let me go to Dr. Verret and ask you about how 
student incomes--outcomes vary depending on what institutions 
are able to spend on the instruction and the student support 
systems.
    Mr. VERRET. I don't have a thorough study in front of me 
that I can refer you to but in my experience as--and I should 
mention I was at in Luzerne County so I know the other LCCC, 
Luzerne County Community College very quite well.
    But what I would say that based, the resource that we need 
to meet the needs of students where they are take time, it 
takes faculty. Our faculty we have very few adjuncts except a 
few professional practice, professor of practice.
    Ms. WILD. That's impressive.
    Mr. VERRET. So we have full time faculty who are engaged 
with students even in their introductory classes. That devotion 
is important for our students. It costs. And if you reduce 
those, if were you to reduce those services at Xavier, our 
outcomes would suffer. We know that.
    So it is important that when we speak of remedial or other 
needs or call it other, meeting students with the course that 
they need or the support structure that they need to persist in 
the subsequent courses rather than throwing them into deep 
water without knowing how to swim. That's criminal. What we 
need those resources are crucial. As we reduce those in the 
community colleges and any college around the country the 
outcomes will suffer.
    Ms. WILD. And some of the things that I was told and all of 
you may also have seen is that there is a greater need for 
things such as childcare on these campuses. There is a need, 
they both of the schools as well as some the 4-year schools in 
my district have food support programs, food banks. And then of 
course there is the issue of attracting and retaining good 
talent in the academic force. So I commend you for being able 
to keep full time professors as opposed to relying solely on 
adjunct personnel.
    I wanted to ask if I could, Dr. Boham, because I am very 
interested in your testimony about the work with local industry 
partners and to ensure that students are on a pathway to good 
jobs. And if you could just in the very short period of time I 
have left you, give us a little bit more information about how 
you make those connections with local industry?
    Ms. BOHAM. We do that in a very face to face kind of hands 
on way with our business partners but and a good example of 
that was one of the studies that we did said that we needed 
people in our hospitals that were certified medical assistants 
instead of the on the job training assistants that they had 
before. They were changing their practice which a lot of 
medical fields are doing, changing the scope and role of 
particular jobs.
    And so we implemented a certified medical assisting program 
that would meet the needs of those hospitals Statewide because 
it's two different providers and they're regional so they're 
not--it's not just Montana. But--
    Ms. WILD. Thank you very much, Dr. Boham. Sorry, it was my 
fault, I left you with very little time but thank you for your 
input.
    Chairwoman DAVIS. Thank you. Ms. Omar.
    Ms. OMAR. Thank you, Chairwoman. Thank you all for being 
here today to have this important discussion. I have a staffer 
who made the choice to attend a community college. He then went 
on to a 4-year university and eventually got a graduate degree 
in an Ivy League school.
    While that is the kind of stories that we would love to 
hear, not many have the opportunity of having that kind of 
progress achieved. Some of our students are getting stuck in 
community colleges. After 6 years in college, 4 in 10 students 
still haven't earned a degree and that as a Nation we have 
barely made any progress in increasing college graduation rates 
over the past 2 decades.
    And we know that underfunded colleges with low graduation 
rates disproportionately enroll students of color and low 
income students. College, community colleges that are less 
selective or open access receive less State funding and charge 
lower tuition. And affordability remains a challenge even at 
college with relatively low tuition costs.
    The full cost of college includes text books, supplies, 
living expenses, costs which are similar to colleges. Many 
students are low income--who are low income are working adults 
who face instability in jobs, who have family demands, who have 
emergency expenses.
    All of community college students nationwide, 40 percent 
are first generation college students. Among community college 
students 22 percent were both food and housing insecure during 
the last year and 80 percent experience both of those 
challenges as well as homelessness.
    To all of you I would love for you to share how your 
institutions are helping some of these students move through 
these challenges so that they can attain graduation.
    Mr. DUBOIS. Thank you for the question. Your description is 
certainly very accurate. We are challenged with students that 
are facing the most difficult life circumstances and we are 
funded at the lowest rate of any public sector of higher 
education. So it is fiscally a challenge.
    We often--we also are under pressure to not raise tuition 
and yet we have to. And we try to do that in a very modest and 
careful way. What we are doing in Virginia is we are trying 
to--whatever extra dollar that we have, we want to invest it in 
student services. We think that is the best bang for that 
dollar to help students be successful.
    Our students need coaching from day one. They need 
guidance, they need navigators. They need social workers. They 
need people who understand where the resources are in the 
community and put those students in touch with those resources.
    Ms. OMAR. Can you, yes. I can't see your names. So yes, if 
you want to take that.
    Ms. MCHATTON. McHatton. Yes. So I think along--
    Ms. OMAR. If we could be mindful of the time if you can--
    Ms. MCHATTON. Sure. Along with some of the things that have 
already been discussed, I think what is really important as far 
as our institution is building capacity within our faculty so 
they're able to stay connected and identify students early on 
when they're in need of particular support services.
    Developing a summer bridge program to prepare students who 
are first generation students and maybe might have some 
academic needs has been very successful. We have also had some 
peer led team learning and supplemental instruction so there is 
a lot of support, academic support throughout their first year 
and beyond in order to help them with any academic needs that 
they may have.
    Ms. OMAR. Thank you. And, Dr. Verret, if I can just have 
you follow that up with maybe a recommendations that you would 
have for us to implement in helping close this gap.
    Mr. VERRET. I would begin, it's about finding students in 
crises especially throughout the first year is crucial but 
other years as well.
    The early alert and how we use early alert is important for 
us because it is important that professors and instructors be 
able to identify a student who is actually not appearing in 
class. A student who is coming in very tired for another reason 
and to give a shout out to the early alert system so the people 
in student and student life to say you need to pull this young 
person in because we think something is going on, to look to 
see whether the student whose grades who is not performing in 
the first exam to pull him in.
    All those are indicators that something is going on. You 
may not know what it is but to get someone competent to engage 
with that student at that point and to build a structure that 
is necessary whether it is housing, whether it's--it could be 
food, it could be other things that are, that another crisis or 
a student was injured in some way. We need to find out.
    Ms. OMAR. I appreciate that. Education is the greatest 
equalizer but we also have to first equalize the situation so 
young people are able to attain that education. Thank you so 
much and I yield back.
    Chairwoman DAVIS. Thank you. Thank you. Ms. Hayes.
    Ms. HAYES. Thank you, Madame Chair, and again thank you for 
allowing me to wave on to this committee because this as well 
is not my committee and I have been listening. and, Dr. Verret, 
I can blame you for this today because generally my staff gets 
so upset because we spend so much time working and preparing 
for these hearings and I have these beautifully put together 
binders and then I hear something and I throw all of this away 
because I am so personally invested in the work that this 
committee does.
    You know, I went to a community college. And what I heard 
today was you talking about your thoughts about K12 education 
and it reminded me of an experience that I think would be 
tremendously relevant here.
    And during my time, I was a high school history teacher, 15 
years in the classroom. I taught African American history and I 
had so many students who had never even heard of an HBCU. So I 
created a unit on it, you know, in Connecticut you--and many of 
the southern States it is a part of the community, it is a part 
of the culture.
    There are so many kids who are outside of this network who 
until someone teaches them about it and that coupled with the 
fact that I also recognize in my time as National Teacher of 
the Year I traveled to over 40 States, saw something that was, 
I thought that was a Connecticut problem but it's a National 
problem and it is diversifying the educator work force and the 
number of teaches of color who are out there.
    And I happen to know that HBCU's produce more teachers of 
color than any other teacher preparation institutions. So I 
guess my question to you would be do you have any thoughts on 
how we expand this network, broaden the spectrum so that you 
are not just having this conversation with young people in 
Louisiana who might be thinking about entering the profession 
but also kids in Connecticut or?
    Mr. VERRET. What I would say is that we do need to resource 
and support teachers because we don't want, we want them--
because we have students who are going to education who have 
high loans, have costs, who eventually have a family and they 
have to make a decision to leave the profession. We don't want 
that especially if they are good teachers.
    We need programs that support teachers because they are the 
most precious commodity. There is an example at the NSF, 
National Science Foundation, the Noyce Grant--which came out 
from the lack of STEM educators where we would actually provide 
tuition support for students who commit to teaching for the 
next 5 to 6 years after that and those many of those teachers 
remain in the teaching profession.
    We need for other disciplines as well whether its social 
studies, whether its special educators. We have to actually 
provide a way of even loan forgiveness for that because I do 
say the work that we do at our colleges whether its community 
colleges or HBCU's is only made easier by having students who 
come in with a basic fundamental, good K through 12 education 
that they deserve.
    Ms. HAYES. Thank you. But again, I don't think it is just 
about the money. I appreciate you saying that because that is 
very important but we cannot underscore the fact that just the 
capacity building.
    I went through community college, undergraduate, a master's 
program and a graduate program where I was the only African 
American in an educator preparation program in the State of--
well, not in my State but in my program. You know, these are, 
we are an education State and I was the only person of color 
through my academic journey.
    Mr. VERRET. And the capacity building is a recruitment 
issue. For example what we do in a recruiting educators is 
beginning to speak of in high school with students who might 
consider becoming teachers. We have to do real outreach the 
same way we are doing--we have done in STEM in the last decade 
as we needed that. We have to do that.
    We also have to think well about the capacity of our HBCU's 
that are producing a large numbers of teachers and support 
their schools of education.
    I can speak for Xavier what we are doing but also I do know 
other HBCU's that have schools of education they need support 
to build their capacities as well.
    Ms. HAYES. Thank you. and, Dr. Boham, I notice that your 
campus is majority female and most of them are over 25 years of 
age. I know that my, a Congresswoman from my State just 
recently introduced a bill to provide childcare which I know is 
a challenge.
    I went back to community college as an adult, with a child, 
as a single parent. Can you talk about what types of supports 
this specific population needs to succeed and how we can help 
here in Congress?
    Ms. BOHAM. Childcare and quality child care that you can 
take your children to and know that they're going to be safe 
and well cared for is critical for our female and male 
students. We have a number of fathers that are primary care 
givers as well.
    And so we have on our campus a preschool and that is 
critical but we also need quality after school programs so that 
parents can focus on their schoolwork and not be worrying about 
the safety of their children. We also know that children that 
are in preschool and that go into kindergarten are going to 
have larger vocabularies and be better prepared and that 
preparation will follow them through their entire K12 
education.
    When I was working in the K12 system, literally a third of 
the native students that were defined in special ed between K3 
were there for language and it wasn't that they were actually 
special ed, it was the number of vocabulary words that they had 
and so these programs are critical.
    Chairwoman DAVIS. Thank you very much. I now turn to Mr. 
Bobby Scott who is the chairman of the overall Education and 
Labor Committee.
    Mr. SCOTT. Thank you, Madame Chair, and ranking member. Dr. 
DuBois, it is good to see you and I want to congratulate you on 
your success at the Virginia Community College system. 
Particularly in the success you have had in the short term 
programs that don't necessarily lead to a degree but lead to a 
good job.
    There is a consensus, a growing consensus that we ought to 
allow Pell grants to help finance these short term programs but 
there is a lot of concern that we want to make sure they only 
go to quality programs.
    Can you say a word about what elements there are in your 
program that we should look at as we evaluate whether or not a 
program is of such quality we want to allow Pell grants to help 
fund it?
    Mr. DUBOIS. Thank you, Congressman Scott. I could suggest 
to you there should be two elements and some kind of an 
accountability system. One is program completion and two is 
employment in a high demand, family sustaining wage job.
    Mr. SCOTT. Now how would--how do you work with local 
businesses to make sure that there will be a demand for your 
graduates?
    Mr. DUBOIS. So to receive any kind of State funding in 
Virginia, first of all we have to have demonstrated demand that 
has to be--that information and data needs to be collected by 
our local community college. It needs to be verified by my 
senior staff. And the State board has essentially granted me 
authority to certify that program as eligible for some State 
funds or not.
    And then the truth is really in the pudding when we look at 
job placement rates which are very, very, very high. And when 
we see the job placement rates and we will at some point how 
many pharmacy technicians will we need in Virginia? When we see 
those placement rates starting to come down, we will probably 
turn off the State support for those programs because we only 
want it to be in high demand.
    They differ region by region but the colleges do a very 
good job as demonstrated by job placement that we are--we have 
an accountable system.
    Mr. SCOTT. Yes, how do your programs differ in rural 
Virginia as supposed to urban Virginia?
    Mr. DUBOIS. In, it's interesting in Virginia, the--we have 
2 million people in rural Virginia and 6 million plus people in 
urban, in the other part of Virginia.
    40 percent of our Fast Forward credentials are now being 
earned in rural Virginia. The only difference I would suggest 
to you, the big one, is the jobs that are in demand in certain 
regions, let's say southwest, south side, are different from 
the jobs that are demand, Congressman Scott, in your region.
    For example in Grundy, they don't really, they're not 
really crying out for a lot of welders. But your major 
employer, that CEO goes to sleep at night and wakes up worrying 
about where can he find welders to build aircraft carriers and 
submarines.
    So we look at these regional differences and we pay a lot 
of respect to those regional differences to see what--we are 
not a kind of a franchise where we have the same menu across 
the board at 23 different community colleges.
    Mr. SCOTT. Thank you. Dr. Verret, Xavier has an outstanding 
reputation of producing minority medical doctors. Can you 
explain how you have that success, what you do to create that 
success?
    Mr. VERRET. Well, it begins first I think with the 
intentionality about advising as students arrive. In their 
first year we begin to prepare them for the pathway that they 
are headed to. What courses they need, what experiences they 
need to have and even how to prepare for the interviews and 
preparing their essays. They think about that.
    The other piece is also there is a curriculum that is very 
well set in mind by our, with our faculty. The faculty and 
there is a great commitment to how those, that curriculum is 
delivered and to make sure that these students are actually at 
the top of their games even when they take the medical entrance 
exams. So it is faculty, it is also the advising.
    Mr. SCOTT. Is that replicable? Can you replicate it?
    Mr. VERRET. It is replicable because we have had not only a 
number of HBCU's but also a number of other colleges
    PWI's, universities that have--that visit Xavier to see 
what we do.
    What is not easily replicable overnight is a faculty that 
is a faculty culture and a campus culture. That piece where 
faculty replicates itself when they hire people they--and 
choose, you know, new members of the faculty.
    There is a criteria of exactly can they deliver for our 
students? That piece is very intentional and we seek to retain 
that.
    Mr. SCOTT. Thank you, Madame Chair.
    Chairwoman DAVIS. Thank you very much. I appreciate that. I 
want to now recognize the ranking member for his closing 
remarks.
    Mr. SMUCKER. Thank you, Madame Chair, and thank you for 
scheduling this hearing. I thought it was an outstanding 
hearing.
    I would like to thank each of the witnesses for taking your 
time to join us today to talk about higher ed reauthorization, 
to talk about the impact that your schools are having. I would 
like to commend you not only again for being here but for the 
great work that you do educating students and really helping 
them have the opportunity to achieve that success, to climb 
that ladder of economic success.
    You know, we heard so many good things coming from the 
schools, the physician assistance at and the physician programs 
at Xavier, STEM development at UTRGV, Virginia Community 
College you talked about the Fast Forward program, that short 
term skill programming. The nursing program at SKC and that was 
just a little bit of what you talked about. Certainly, you 
know, I am just--I am glad you had the opportunity to highlight 
some of these excellent programs here today.
    You know, one of the things that we can do is promote 
excellence when we see it and I hope that you are able to share 
those best practices and other institutions can learn from the 
leadership that you are providing and the work that you are 
doing.
    I know the Federal Government can also do more to help 
these students and help the MSI's and community college serve. 
Not only help students not only access higher education but 
persevere to completion and succeed in the work force. And so 
as we are considering reauthorization we can talk about earn 
and learn programs, the work force Pell funding, more 
flexibility in spending for institutions and spending those 
funds and increased collaboration between institutions and 
local employers.
    So I look forward to continuing this conversation. We are 
certainly not all born into the same environment but that 
difference of initial circumstance should not mean that we 
shouldn't all have an equal opportunity to succeed. That is 
really the promise, excuse me, the promise of America.
    So I think it is really important the work that we are 
doing on this reauthorization is very important. It is 
important that we get it right so that all students can achieve 
a better life for them and their families.
    So again thank you for the work that you do. I would like 
to again thank the ranking member.
    Chairwoman DAVIS. Thank you and I want to thank our ranking 
member for those--
    Mr. SMUCKER. Or the chair I should say.
    Chairman DAVIS [continuing]. for those comments as well and 
thank all of you because you have brought some very important 
information. We know historically that the students you serve 
have not really had full access to our education system and so 
it is important that we move forward from today. And certainly 
as the work that you have been doing and, Chancellor, for many, 
many, many years we appreciate that.
    By offering culturally relevant programming that it 
recognizes, you know, how important identity is, how community 
and tradition, the HBCU's, TCU's and HSI's you not only educate 
students but empower them to be the next generation of leaders 
in their community and that is why it matters. That is why it 
is important to all of us that these opportunities are 
available not just to the students because we need them. We 
need them for our future and we all have to buy into that 
notion and know that it is not helpful when we short change 
your institutions when you are serving in many cases the most 
vulnerable students.
    And, you know, I think what is interesting about the 
multiple challenges that they face is that you are helping them 
where they are and acknowledging that you have to be adaptive 
in your programming and to be able to truly move with the times 
and what we need as a country.
    We have talked about so many of the programs, the models 
that you have brought and part of I think what we are trying to 
grabble with here is how to make them work right, how to scale 
them, and how to be certain the they are open and that they are 
exceptional. That they are prestigious for young people and 
that everybody leaves feeling that they have great value in the 
time that they have spent. Not that it has been time that has 
been wasted.
    Anyways as I think Dr. Verret mentioned it is so often we 
find that. So I want to thank you very much for that. We, 
Congress really can't expect institutions to continue 
disproportionately serving vulnerable students while 
simultaneously fighting to receive the vital funding from 
Federal, State and local governments that they need.
    So we have to continue as we work to reauthorize the Higher 
Education Act committee to supporting these institutions that 
are really resource strapped but on the front lines of our 
effort to provide Americans with equal access to higher 
education. Thank you very much.
    And I now want to ask unanimous consent to enter into the 
record a statement from the California State University of Los 
Angeles highlighting the best practices CSU LA uses to serve 
the Latino community.
    We appreciate your being here and there is no further 
vision--business, the committee stands adjourned. Thank you 
very much.
    [Additional submission by Chairwoman Davis follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    [Whereupon, at 12:47 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
